<html>
<title> - EXPANDING OPPORTUNITY IN AMERICA'S SCHOOLS AND WORKPLACES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        EXPANDING OPPORTUNITY IN
                           AMERICA'S SCHOOLS
                             AND WORKPLACES

=======================================================================

                                HEARING

                              BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 4, 2015

                               __________

                            Serial No. 114-1

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
92-960 PDF                  WASHINGTON : 2016                     
               
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  
               
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 4, 2015.................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     8
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     9
        Prepared statement of....................................    14

Statement of Witnesses:
    Amiridis, Michael, Dr., Provost and Executive Vice President 
      for Academic Affairs, University of South Carolina, 
      Columbia, SC...............................................    24
        Prepared statement of....................................    26
    Greenblatt, Drew, Mr., President and CEO, Marlin Steel Wire 
      Products, Baltimore, MD....................................    47
        Prepared statement of....................................    49
    Mishel, Lawrence, Dr., President, Economic Policy Institute, 
      Washington, DC.............................................    32
        Prepared statement of....................................    34
    Pence, Hon. Mike, Governor, State of Indiana, Indianapolis, 
      IN.........................................................    18
        Prepared statement of....................................    20

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        The Hartford Courant: Connecticut's Hiring Hasn't Been 
          This Good Since 1998...................................    84
    Chairman Kline:
        Democratic Subcommittee Assignments and Membership.......     5
        Republican Subcommittee Assignments and Membership.......     3
    Mr. Scott:
        Chart: When it comes to the pace of annual pay increases.    11
        Chart: Middle-class wages are stagnant...................    13

 
       EXPANDING OPPORTUNITY IN AMERICA'S SCHOOLS AND WORKPLACES

                              ----------                              


                      Wednesday, February 4, 2015

                     U.S. House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Thompson, 
Walberg, Guthrie, Rokita, Messer, Brat, Carter, Bishop, 
Grothman, Russell, Curbelo, Stefanik, Allen, Scott, Hinojosa, 
Grijalva, Courtney, Fudge, Polis, Sablan, Wilson, Bonamici, 
Pocan, Takano, Jeffries, Clark, Adams, and DeSaulnier.
    Staff present: Lauren Aronson, Press Secretary; Ed Gilroy, 
Director of Workforce Policy; Callie Harman, Staff Assistant; 
Christie Herman, Professional Staff Member; Marvin Kaplan, 
Workforce Policy Counsel; Nancy Locke, Chief Clerk; Zachary 
McHenry, Legislative Assistant; Daniel Murner, Deputy Press 
Secretary; Brian Newell, Communications Director; Krisann 
Pearce, General Counsel; Lauren Reddington, Deputy Press 
Secretary; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Mandy Schaumburg, Education Deputy Director and Senior 
Counsel; Emily Slack, Professional Staff Member; Alissa 
Strawcutter, Deputy Clerk; Juliane Sullivan, Staff Director; 
Alexa Turner, Legislative Assistant; Joseph Wheeler, 
Professional Staff Member; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Amy Cocuzza, Minority Labor Detailee; Eamonn 
Collins, Minority Education Policy Advisor; Denise Forte, 
Minority Staff Director; Melissa Greenberg, Minority Labor 
Policy Associate; Carolyn Hughes, Minority Senior Labor Policy 
Advisor; Eunice Ikene, Minority Labor Policy Associate; Brian 
Kennedy, Minority General Counsel; Brian Levin, Minority Press 
Secretary; Richard Miller, Minority Senior Labor Policy 
Advisor; Amy Peake, Minority Labor Policy Advisor; and Rayna 
Reid, Minority Labor Policy Counsel.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Before we turn our attention to this morning's hearing, I 
would like to take care of an administrative matter. At the 
committee's January 21, meeting we welcomed our new members to 
the committee. Today, both the Republicans and Democrats have 
completed assigning members to the subcommittees.
    I ask unanimous consent on behalf of myself and Mr. Scott, 
the committee's ranking member, to submit those assignments for 
the record.
    Mr. Scott. Without objection--
    Chairman Kline. We will give you every opportunity.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Without objection, the subcommittee 
assignments are made.
    Turning to our hearing, and Governor Pence is with us; he 
will be joining here in just a moment, but I would like to go 
ahead and get started.
    So I am going to recognize myself for my opening comments.
    Welcome, to witnesses and guests. I would like to extend a 
special welcome to our former colleague, Indiana Governor Mike 
Pence, who, I just mentioned, will be joining us shortly.
    Last week, we were reminded once again of the persistent 
challenges facing the American people. The Department of 
Commerce reported that the economy grew a meager 2.6 percent in 
the last quarter of 2014. According to the Wall Street Journal, 
we have now experienced nine straight years of growth below 3 
percent.
    This anemic economy is hurting families across the country. 
It is hurting nearly 9 million workers who remain unemployed; 
it is hurting more than 6 million workers who need full-time 
jobs, but can only find part-time work; it is hurting moms and 
dads trying to pay the bills and put food on the table with 
smaller paychecks.
    As workplaces continue to struggle, so do the nation's 
schools. One out of five students will drop out of high school 
before receiving a diploma.
    Making matters worse, far too many students graduate 
without the knowledge and skills they need to pursue higher 
education or compete in the workforce. Meanwhile, college costs 
continue to soar and graduates are leaving college with too 
much debt and too few job prospects.
    These are tough problems that have been around for years, 
and unfortunately, the President's policies are making them 
worse. The administration continues to pursue new rules and 
regulations that jeopardize employee rights, stymie growth, and 
make it harder for employers to raise wages and create new 
jobs.
    A convoluted waiver system is creating more confusion and 
uncertainty in K-12 schools, and flawed regulatory schemes will 
deny students access to the college or university of their 
choice.
    Just this week, the President put forward a budget proposal 
that calls for more spending, more taxes, and more borrowing to 
create new government programs. Middle-class families are being 
squeezed, and a larger federal presence in classrooms and 
workplaces is not the answer.
    The President wants us to double down on the failed 
policies of the last six years. The American people deserve 
better. We need to do better.
    We must provide employers certainty and flexibility so they 
can grow their businesses, create new jobs, and give workers 
the raise they have earned. We must help more students pursue 
the dream of a college degree without living in a nightmare of 
debt and unemployment.
    We must advance K-12 education reform that empowers parents 
and places more control in the hands of teachers and local 
decision-makers. We must modernize our pension system and hold 
the administration accountable for policies that make it harder 
for individuals to succeed in school and the workplace.
    The American people are desperate to move the country in a 
new direction. They are not willing to accept slow growth and 
stagnant wages as the new normal.
    They deserve bold solutions that will lead to a strong, 
vibrant economy, more good-paying jobs, and higher incomes for 
working families. These are the priorities shared by most 
Americans and they must be our priorities as well.
    In the coming months, we intend to advance responsible 
reforms that will help make a difference in the lives of 
students, employers, teachers, and working families. We have an 
excellent panel of witnesses to tell us what is working and 
what isn't and to help inform our efforts moving forward.
    Again, I want to thank our witnesses for joining us, and I 
look forward to our discussion.
    Before I recognize Ranking Member Scott, I would like to 
take just a brief moment to say a few words about one member 
who is unable to join us today. Congressman Phil Roe recently 
learned that a member of his family is battling a serious 
illness and has taken some time to support his family. I ask my 
colleagues to please lift up your prayers to Phil and the 
entire Roe family.
    With that, I will now recognize the committee's ranking 
member, my colleague, Bobby Scott, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning, and welcome to our guests. We have a distinguished 
panel of witnesses, including the First Lady of the Commonwealth of 
Virginia, Mrs. Dorothy McAuliffe. Mrs. McAuliffe, we are delighted to 
have you with us this morning as we discuss important policies 
affecting our nation's students and families.
    Healthy meals are vitally important to a child's education. It's 
just basic commonsense that if a child is hungry then he or she is less 
likely to succeed in the classroom and later in life. That is why our 
nation has long invested in services that provide low-income students 
nutritious meals in schools. Those services are authorized through a 
number of laws, such as the Richard B. Russell National School Lunch 
Act and the Child Nutrition Act.
    In just a few short months, these laws and the programs they 
authorize will expire, including the national school lunch and 
breakfast programs, the Supplemental Nutritional Program for Women, 
Infants, and Children or WIC Program, and several others. It's the 
responsibility of this committee and Congress to reauthorize these 
programs so that students and families receive the support they need in 
the most efficient and effective way.
    Why is that important? Because no child should go to school hungry 
- it's that simple. Today's discussion is not about whether we agree on 
this basic principle; I am confident we all do. Instead, our discussion 
today is about beginning a larger effort we will continue in the coming 
months to ensure the best policies are in place to help reach this 
goal.
    Last week, I had an opportunity to tour a school lunchroom at the 
Prior Lake High School in Savage, Minnesota. Students and faculty 
described what's working and what isn't working in federal nutrition 
programs. As a result of our conversation, two important realities 
became abundantly clear.
    First, our school nutrition professionals are dedicated men and 
women doing the best they can under difficult circumstances, and no one 
should question their commitment to providing students nutritious 
meals. Unfortunately, rules and regulations put in place in recent 
years have made their jobs harder, not easier. The cost of the lunch 
and breakfast programs for schools are going up, yet fewer meals are 
being served. In fact, the number of children participating in these 
programs is declining more rapidly than any period over the last 30 
years.
    Second, as we reauthorize these programs, we have to provide more 
flexibility at the state and local levels. Those working in our schools 
and cafeterias recognize that this has to be a priority. Even students 
understand the urgent need for more flexibility.
    During my visit to Prior Lake High School, I talked with a number 
of students about their school lunch program. Right now, the federal 
government determines the number of calories, vegetables, and grains 
that are served to students, which means Washington is dictating how 
much food every child is served at every school meal. That is one 
reason why students are urging the school to drop out of the program. 
Many children are bringing food from home or buying more food because 
the portion sizes served at school are too small for a full meal. As 
one student, Corinna Swiggum, noted, ``A lot of time, we're going back 
and getting junk food, not healthy food.''
    This isn't what these children want. This isn't what their parents 
or school administrators want, and it's not what we want either. We 
have to find a better way forward, one that continues our commitment to 
healthy, nutritious meals for America's students, while giving state 
and school leaders the flexibility they need to make it a reality.
    Again, that is why we are delighted to have you here today Mrs. 
McAuliffe. Through your ``Eat Smart, Move More'' initiative, you are 
setting an example for other states to build upon. You are 
demonstrating that promoting healthy lifestyles is not just a federal 
priority, but a state and local priority as well.
    Often we are told we need more federal involvement because states 
can't be trusted to help those in need. But through your leadership, 
you're demonstrating states can take the lead on tough issues in 
partnership with the federal government. Thank you for your work on 
this important issue, and to all our witnesses, thank you for 
participating in today's hearing and working with us to strengthen 
child nutrition support.
    With that, I will now recognize the committee's ranking member, my 
colleague Congressman Scott, for his opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman. And our thoughts and 
prayers are with our colleague, Dr. Roe, and I wish his family 
well.
    Good morning, and I want to thank our witnesses for being 
here for the first full committee hearing of the 114th 
Congress, especially our former member from Indiana. Today's 
hearing allows us to hear testimony from a distinguished panel 
about steps that states and institutions of higher education 
and business are taking to improve the well-being of students, 
families, and workers in our country, and I look forward to 
learning more from our witnesses.
    Mr. Chairman, I would point out that I had hoped that our 
first hearing would be to consider testimony on legislation 
that was introduced yesterday, H.R. 5, which would reauthorize 
the Elementary and Secondary Education Act. I am disappointed 
that the majority has chosen to move forward on the 
reauthorization without holding a single hearing.
    Hearings provide the public with the opportunity to explore 
the research and evidence that is critical to making evidence-
based policy decisions. When it comes to improving the academic 
achievement of our children, we need the best research to help 
form the basis for any reauthorization.
    Failure to seek input from experts and various stakeholders 
and embarking on an expedited process is a disservice to the 
50-year bipartisan history of ESEA, and, more importantly, a 
disservice to our nation's children. So tomorrow we will be 
holding a forum on ESEA, to which all members of the committee 
are invited. This forum will serve as one opportunity to 
explore what works to improve education.
    But on the issue of the opportunity for students and our 
workers, our country has come a long way since the depths of 
the Great Recession. Unemployment has dropped to 5.6 percent, 
its lowest rate since 2008. The private sector has experienced 
a record 58 consecutive months of job growth, and each of the 
past 11 months the economy has added over 200,000 private 
sector jobs, a growth rate not seen since the 1990s.
    But success in the labor market has yet to translate into 
higher wages for the majority of workers, and the gap between 
the haves and have-nots continues to expand. This chart points 
out that wages for the top 1 percent since 1979 have grown over 
138 percent, while the bottom 90 percent just grew 15 percent.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    And the income for the top 1 percent rose from $871,000 in 
2009 to $968,000 in the course of just the last year. But for 
the remaining 99 percent, the income rate has actually declined 
over the same period.
    This next chart gives a better idea of what has happened to 
the middle class wages from 1979 to 2013. Middle class wages 
have grown a mere 6 percent, while low-wage workers actually 
declined 5 percent.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Congress must ensure that all workers see our economy's 
improvement reflected in their paychecks. This includes raising 
the national minimum wage, increasing overtime pay protections, 
and strengthening workers' ability to collectively bargain on 
their behalf.
    We also must continue to expand the bipartisan achievements 
of the Workforce Innovation and Opportunities Act to promote 
and develop skills which lead to in-demand, higher-paying jobs. 
Our investment in our country's workforce must start early. The 
success of our children directly relates to the long-term 
health of our workforce and our economy.
    In fact, a study just released by the Washington Center for 
Equitable Growth shows that improving our educational 
performance could substantially increase our gross domestic 
product over the next 35 years. Only through continued 
investment in high-quality education and through working to 
reduce inequality in our educational system can our country 
continue to thrive. We must make sure that all students are 
receiving an education that prepares them for college or a 
career.
    And we must also improve access to higher education. 
Research from the Georgetown University Center on Education and 
the Workforce shows that by 2018 we will need 22 million new 
college degrees, and at the rate we are going we are going to 
fall short by 3 million.
    A college education is important not only for our economy, 
but also for students' future wages. College graduates earn an 
average of $46,000 a year, where those with only a high school 
diploma earn less than half of that.
    But the cost of pursuing a college degree has become even 
more daunting. Skyrocketing college costs have forced students 
and families to incur greater and greater loan debt.
    Seven in 10 graduating seniors in 2013 had to borrow money 
averaging $28,000 or more. Student debt now stands at over $1.2 
trillion and is certainly a drag on our economic growth.
    I hope the committee can find areas of common ground to 
address these challenges, and I look forward to hearing from 
witnesses on how we can expand opportunity for students and our 
workers.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    Good Morning, I want to thank our witnesses for being here today 
for our first full committee hearing of the 114th Congress.
    Today's hearing allows us to hear testimony from a distinguished 
panel about the steps that states, institutions of higher education and 
business are taking to improve the well-being of students, families and 
workers in our country. I look forward to learning more from the 
witnesses.
    However, Mr. Chairman, I had hoped that our first hearing would be 
to consider testimony on the legislation you introduced yesterday, H.R. 
5, which would reauthorize the Elementary and Secondary Education Act.
    I am disappointed the majority has chosen to move forward with 
their Elementary and Secondary Act reauthorization without holding a 
single hearing. Hearings provide the public with the opportunity to 
explore the research and evidence that is critical to the making 
evidence-based policy decisions. And when it comes to improving the 
academic achievement of all children, we need the best research to help 
form the basis of any reauthorization.
    Failure to seek input from experts and various stakeholders, and 
embarking on an expedited process is a disservice to the fifty-year, 
bipartisan history of ESEA and, more importantly, a disservice to our 
nation's children.
    So tomorrow, we are holding a Democratic forum on ESEA to which all 
members of the committee are invited. This forum will serve as one 
opportunity to explore what works to improve education.
    Our country has come a long way since the depths of the Great 
Recession. Unemployment has dropped to 5.6 percent, its lowest rate 
since 2008. The private sector has experienced a record 58 consecutive 
months of job growth. Each of the past 11 months, the economy has added 
200,000 private sector jobs--growth not seen since the 1990s.
    But success in the labor market has yet to translate into higher 
wages for the majority of workers and the gap between the ``haves'' and 
``have-nots'' continues to expand.
    As the first chart points out, wages for the top 1% have grown 138% 
since 1979, while wages for the bottom 90% grew at just 15%. And the 
average income for the top 1 percent rose from $871,100 in 2009 to 
$968,000 over the course of 2012 and 2013, but for the remaining 99 
percent, average income actually declined slightly over the same 
period.
    The next graph gives us a better idea of what has happened to 
middle-class wages: from 1979 to 2013, middle-class wages have grown a 
mere 6%, with low-wage workers' wages actually declining 5%.
    Congress must ensure that all workers see our economy's 
improvements reflected in their paychecks. This includes:
    * Raising the national minimum wage;
    * Increasing overtime pay protections; and
    * Strengthening workers' ability to collectively bargain on their 
behalf.
    We also must continue to expand on the bipartisan achievements of 
the Workforce Innovation and Opportunities Act (WIOA) to promote and 
develop skills that lead to in-demand, higher-paying jobs.
    However, investment in our country's workforce must start early: 
the success of our children directly relates to the long-term health of 
our workforce and our economy. In fact, a study released just this week 
by the Washington Center for Equitable Growth shows that improving our 
educational performance could substantially increase our gross domestic 
product over the next 35 years. Only through continued investment in 
high-quality education and through working to reduce inequality in our 
education system can our country continue to thrive. And we make sure 
all students are receiving an education that prepares them for college 
or career.
    We must also improve access to higher education. Research from the 
Georgetown University Center on Education and the Workforce shows that 
by 2018, we will need 22 million new college degrees, but we will fall 
short by at least 3 million.
    A college education is important not only for our economy, but also 
for a student's future earnings. College graduates, on average, earn 
$46,900 a year, whereas those with only a high school diploma earn less 
than half that.
    But the cost of pursuing a college degree has become even more 
daunting. Skyrocketing college costs have forced students and families 
to incur greater and greater loan debt. Seven in 10 graduating seniors 
in 2013 had to borrow loans averaging $28,400. Student debt now stands 
at over $1.2 trillion and is a drag on our economic growth.
    I hope the Committee can find areas of common ground to address 
these challenges.
    And I look forward to hearing from our witnesses about how we can 
expand opportunity for students and workers.
    Thank you and I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. Without objection, the hearing record 
will remain open for 14 days to allow such statements and other 
extraneous material referenced during the hearing to be 
submitted for the official hearing record.
    And I know Governor Pence has heard that phrase 1,000 
times. Seems a little strange to have you down there instead of 
up here.
    But to that end, we are going to move to introducing our 
distinguished witnesses, and I will start by recognizing Mr. 
Rokita, followed by Mr. Messer, to introduce their governor.
    Mr. Rokita?
    Mr. Rokita. Well, good morning. And thank you, Mr. 
Chairman, for the privilege of introducing our good friend and 
one of Indiana's favorite sons, a true leader, Mike Pence.
    Many of us have worked with Governor Pence here in the 
House, and we are pleased to see his public service continue.
    He is a cutting-edge policymaker. He is a solution-oriented 
leader.
    And perhaps most obvious to many of us, he serves with a 
servant's heart in all versions of that definition. Governor 
Pence deserves a great deal of credit for fostering education 
and economic opportunity in our great state.
    And, Mr. Chairman, I will simply let him tell us more about 
that.
    It is an honor to have you here with us today, Governor. 
Thank you for your service.
    Mr. Messer. Thank you, Mr. Chairman.
    Thank you, Mr. Rokita.
    It is my honor to be able to introduce a proud son of 
Indiana's 6th Congressional District, my friend--I am proud to 
call Mike Pence my governor, but I am even prouder to call him 
my friend. He is, as you will learn today, an incredible 
innovator in the area of education, somebody who is expanding 
vocational opportunities in our state, somebody who is a great 
champion for school choice initiatives in our state, somebody 
who understands that we cannot rest as a nation until every 
child in America has an opportunity to go to a great school, 
and understands the simple principle that no child in America 
should have a wait list to their future.
    Thank you for being here today, Governor. We are proud to 
have you.
    Chairman Kline. I thank the gentleman.
    I would now like to recognize Mr. Wilson to introduce our 
second witness.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman.
    And this is really a special day for the Wilson family. My 
wife is going to be here in a minute, because two of her 
favorite people on earth are sitting up front: Mike Pence and 
Provost Michael Amiridis. Hey, she loves to see Chairman Kline, 
but this is much better, so--
    Chairman Kline. Too late.
    [Laughter.]
    Mr. Wilson of South Carolina. No, no this is good.
    But as a grateful graduate of the University of South 
Carolina myself, I really appreciate Dr. Michael Amiridis being 
here today and for his service to the University of South 
Carolina, its students, as provost and executive vice president 
of academic affairs.
    Dr. Amiridis has been an integral part of the University of 
South Carolina since 1994, when he started as an assistant 
professor. He has served as provost since 2009.
    As a continuing professor of chemical engineering, Dr. 
Amiridis has taught several courses in kinetics, reactor 
design, and catalysis, and has received numerous college and 
university awards recognizing his teaching ability and research 
efforts.
    Though the University of South Carolina will surely miss 
him, we wish him well in his future endeavors as the new 
chancellor of the University of Illinois at Chicago, beginning 
next month.
    Godspeed, Dr. Amiridis.
    Thank you.
    Chairman Kline. I thank the gentleman.
    Now it is my turn to introduce the next two witnesses.
    Dr. Lawrence Mishel is the president of the Economic Policy 
Institute, EPI. During his time at EPI he has focused on U.S. 
living standards and labor markets. Prior to joining EPI, he 
held a number of research roles, was a faculty member at 
Cornell University School of Industrial and Labor Relations, 
and was an economist for several unions, including the United 
Auto Workers, the United Steelworkers, AFSCME, and the 
Industrial Union Department of the AFL-CIO.
    Welcome.
    Mr. Drew Greenblatt is president and CEO of Marlin Steel in 
Baltimore, Maryland, a company of 30 employees that 
manufactures materials handling baskets, sheet metal 
fabrications, wire forms, and machine products for aerospace, 
automotive, medical, pharmaceutical, industrial, and military 
applications. Mr. Greenblatt served on the board of the 
National Association of Manufacturers from September 2007 to 
September 2009 and is currently the chair of their Small 
Business Tax Policy Task Force.
    We have a new policy, which I think has been explained to 
the witnesses, that we have adopted across the committees in 
the House based on a Department of Justice recent ruling, and 
so I am going to ask the witnesses to stand and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Kline. Thank you. Please be seated.
    And let the record reflect the witnesses answered in the 
affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. It is not all that 
innovative or unusual so I don't think this will be too hard.
    You have five minutes to present your testimony. When you 
begin, the light in front of you will turn green; when one 
minute is left, the light will turn yellow; when your time is 
expired, the light will turn red.
    At that point, I will ask that you wrap up your remarks as 
best you are able. It has been a very long time since I have 
gaveled down a witness because they ran over, but please be 
aware that there are the four of you and that we want the 
opportunity to ask questions.
    When it comes to member questions, I am much quicker to 
drop the gavel, as I will try to hold my colleagues to their 
five minutes.
    So, Governor Pence, you are recognized.

   STATEMENT OF HON. MIKE PENCE, GOVERNOR, STATE OF INDIANA, 
                     INDIANAPOLIS, INDIANA

    Governor Pence. Thank you, Chairman Kline, and to Ranking 
Member Scott. Thank you for the invitation to come before you 
today and talk about what it is to be a part of a state that 
works, and particularly works for education.
    I am grateful to have the opportunity to appear before all 
the distinguished members of this committee, many of whom I had 
the great privilege of serving with in the House of 
Representatives. And so let me thank all of you for the ongoing 
sacrifices that you personally and your families make as you 
serve the American people in this important time in the life of 
our nation.
    Obviously, I am extremely grateful for the service and the 
leadership and the esteem of Congressman Rokita and Congressman 
Messer.
    Thank you for your kind comments. More importantly, thank 
you for your outstanding service to the people of Indiana and 
the people of our country.
    I have been in office as governor for a little over two 
years, and, Mr. Chairman, I would say with the deepest respect 
to my former colleagues that I am persuaded, having spent 12 
years in the Congress and two years as a governor, that the 
cure for what ails this country will come as much from our 
nation's state capitals as it ever will from our nation's 
capital.
    And I am very grateful for the efforts of this Congress, 
last Congress in the Workforce Investment Act, and as you move 
forward in reaffirming and restoring local control in 
education, that there is a clear recognition of that.
    In Indiana, in the category of education, we believe our 
state has the privilege of really being one of the leading 
innovators in education and expanding opportunity for all of 
our kids in this country. We are a state that is growing 
economically: more than 100,000 net new jobs since I took over; 
unemployment has dropped from over 8 percent to now 5.8 percent 
in Indiana.
    But we realized early on in our state that if we can't 
succeed in the classroom, we won't succeed in the marketplace. 
And so Indiana has been driving education innovation, funding 
our traditional K-12 schools, and promoting public charter 
school innovation.
    We are proud in the Hoosier state to be home now to the 
largest educational voucher program in the United States of 
America. In K-12 education, I am pleased to report to you 
graduation rates are up, test scores are up, and the state of 
Indiana recently ranked second in the nation in total growth on 
the Nation's Report Card, known as the NAEP.
    Our charter schools serve more than 35,000 students across 
the state of Indiana, and, as I mentioned, our voucher program 
not only encompasses now some 30,000 students, but four out of 
five of our voucher students attend schools that are ranked 
``A'' or ``B'' in the state's accountability system.
    Our current session of the general assembly is underway and 
we have reached a broad consensus that it will be an education 
session. We put forward a series of initiatives, the goal of 
which is to arrive at the fall of the year 2020 and have 
100,000 more kids attending ``B'' or better schools in the 
state of Indiana.
    To accomplish that, we are calling for a significant 
increase in traditional K-12 funding, with a special emphasis 
on giving greater flexibility in our classrooms to pay good 
teachers more. As the chairman remembers, I have been married 
to a school teacher now for 30 years this year, and I learned a 
long time ago that good teachers make the difference.
    And I said recently to our general assembly that if you 
want more good teachers then pay good teachers more. We are 
going to work to do that in the state of Indiana and give 
schools the flexibility to do that. We are also going to raise 
the foundation under our public charter program and lift the 
cap on our voucher program.
    Most enthusiasm in our state, I believe, centers not just 
around those initiatives, but I believe Indiana will be the 
first state in America to make career and vocational education 
a priority in every high school again. We have been working 
with unanimous bipartisan support in our general assembly to 
both redesign career and technical education at the high school 
level in Indiana, and now in this session of our general 
assembly we will be funding it.
    So my word is, as I watch the clock and know the chairman 
well enough to know the gavel is close, my word to all of you 
is a word of thanks for your leadership. I look forward to a 
dialogue today.
    But my request simply is that Indiana has demonstrated the 
kind of innovation that is benefiting our children; it is 
expanding educational choices both within our public systems, 
as well as private school choice in our state, so as you go 
through the process of legislating this year that you think of 
resources, not red tape. I really do believe that to the extent 
that this Congress can give states like Indiana more freedom, 
more flexibility to innovate, our children, our states, and our 
people will be the beneficiaries.
    So thank you very much, and I yield back.
    [The statement of Governor Pence follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you very much, Governor.
    Now I would like to recognize Dr. Amiridis for five 
minutes.

 STATEMENT OF DR. MICHAEL AMIRIDIS, PROVOST AND EXECUTIVE VICE 
 PRESIDENT FOR ACADEMIC AFFAIRS, UNIVERSITY OF SOUTH CAROLINA, 
                    COLUMBIA, SOUTH CAROLINA

    Mr. Amiridis. Thank you, Mr. Chairman.
    Chairman Kline, Ranking Member Scott, and distinguished 
members of the committee, it is an honor and a privilege for me 
personally and for the University of South Carolina to appear 
in front of you today.
    The changes we have experienced in higher education in the 
last five years are unprecedented. It is not only the 
operational and funding models that are changing drastically, 
but it is also the expectations of the public, of our students, 
and their parents that have shifted dramatically.
    Given this environment, some of my colleagues in academia 
are actually pessimistic about the future of our universities.
    In contrast, I believe that the best days for our public 
research universities are ahead of us. I believe that the 
public's demand for transparency and accountability gives us a 
wonderful vehicle to demonstrate the great success we have had 
in educating the sons and daughters of our country and 
preparing them for the workforce.
    I believe that the expectations of the students and parents 
for job skills and employability have motivated us to reexamine 
and modernize our programs. And I believe that the current 
environment is ideal for the establishment of public-private 
partnerships to support critical functions of our public 
universities, taking advantage of the experience and efficiency 
of the private sector.
    And yes, all of this can be achieved while we continue to 
increase efficiencies and control costs so that we remain 
accessible and affordable.
    There is no doubt that we will also continue to face 
significant challenges in higher education. Decreased funding 
both for instruction at the state level in many states, and for 
research at the federal agency level, has resulted in 
significant financial pressures on the operation of our 
universities.
    An increasingly larger fraction of the cost of 
undergraduate instruction has been passed to the students and 
their families through increases in tuition, creating a 
situation where we are pricing out, even from our public 
universities, a growing percentage of our high school 
graduates. At the same time, it has become more difficult for 
the research universities to sustain financially the efforts 
that have contributed to the world-leading position of our 
country in technology and creating an innovation deficit.
    Finally, due to a growing regulatory framework both at the 
state and federal levels, the amount of time and effort needed 
to satisfy report requirements has grown exponentially with 
clear cost consequences for us.
    In this environment there are going to be universities that 
thrive at the same time that others will struggle to maintain 
status quo. The difference will be the ability to come up with 
and implement innovative ideas quickly, and I am here today to 
offer a few examples of such innovative programs in South 
Carolina.
    Our Palmetto College provides the opportunity to place-
bound South Carolinians to complete their undergraduate degrees 
online after they have studied for two years in a university, a 
community college, or a technical college. It allows students 
in vocationally oriented degree programs to develop the skills 
needed for available jobs in their local communities; it 
provides local advising, career counseling services, utilizing 
the existing network of campuses in our system; and most 
importantly, it reduces cost of attendance and student debt by 
maintaining affordable tuition.
    In the two years since its inception in 2013, more than 
1,000 students have enrolled in these degree programs, and 200 
of them have already graduated.
    Our ``On Your Time'' initiative utilizes the full calendar 
to give our students more flexibility in academic planning to 
facilitate timely graduation. It expands the traditional summer 
programs to a full semester; it allows students to take 
advantage of work, service, or other opportunities year-round 
without the risk of extending their time to graduation and 
their debt; and it creates summer immersion institutes in high-
demand areas for students who want to enhance their marketable 
job skills in a short period of time.
    The added flexibility allows for over 50 percent of the 
bachelor's degrees offered by the University of South Carolina 
to be completed on an accelerated timeframe, consistent with 
the preference of over 40 percent of our freshmen and sophomore 
students who would like the opportunity to complete their 
baccalaureate degree in less than four years.
    Additional examples--our USC Connect program and Gamecock 
Guarantee programs--are described in detail in the written 
testimony.
    We pledge to continue developing such ideas, as I know many 
of our colleagues also do across the country, but we also need 
your help. We need your help in continuing to support need-
based federal funding for our students. We need your help in 
continuing to provide federal support for academic research so 
that we close the innovation deficit.
    And finally, we need your help in controlling a growing 
regulatory framework--put in place, in most cases, with good 
intentions in order to control a few bad actors--although the 
tools are already in place to do so.
    Mr. Chairman and members of the committee, I thank you for 
the opportunity to join you today. And on behalf of our 
students, their families, and our faculty and staff members, I 
thank you for your commitment to and support of higher 
education, and in particular, the public higher education 
sector that I come from.
    Thank you.
    [The statement of Dr. Amiridis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
        
    Chairman Kline. Thank you, sir.
    Now, Dr. Mishel, please? You are recognized for five 
minutes.

 STATEMENT OF DR. LAWRENCE MISHEL, PH.D., PRESIDENT, ECONOMIC 
               POLICY INSTITUTE, WASHINGTON, D.C.

    Mr. Mishel. Thank you very much.
    Chairman Kline, Ranking Member Scott, members of the 
committee, I appreciate the opportunity to address the state of 
the economy and the prospects for America's workers.
    My testimony today will focus on the key economic challenge 
we face, which is middle-income stagnation. It is just common 
sense that wage trends lay at the heart of this issue.
    After all, middle-income families are essentially those who 
rely almost entirely on their jobs for what they get to spend. 
They don't have financial assets that produce income. This is 
also true for low-income households, so lifting people out of 
poverty and strengthening the middle class is essentially that 
wage growth.
    Let me offer a few facts to start the discussion. First, as 
Mr. Scott noted, the top 1 percent saw their wages rise by 138 
percent since 1979, while the bottom 90 percent saw a rise of 
just 15 percent, most of that in the late 1990s.
    Secondly, we have seen substantial productivity growth 
since 1973, up 74 percent. But a typical worker's pay only rose 
9 percent. So this is a very long-term issue and it is not 
about generating productivity; it is about making sure that 
productivity is shared by the vast majority.
    Last, it is also worth noting that wages have been stagnant 
for the last 10 years in the last recovery as well as this one, 
for both blue-collar and white-collar workers, both college 
graduates and high school-educated workers.
    Some people think that these problems stem from a so-called 
skills mismatch, that somehow those without a college degree 
just don't have the skills needed for today's economy. That is 
simply not true.
    Evidence from many studies shows that since 2000 the jobs 
that we have been creating have been concentrated at the very 
low end. The jobs in the upper half of the wage scale, which 
require the most education, have not expanded their share of 
employment whatsoever. In fact, we see college wages stagnant, 
new graduates from colleges taking jobs with fewer wages and 
fewer benefits.
    So what are some of the things that can be done by this 
committee to actually address this problem? First, you should 
raise the minimum wage to $12.50 by 2020, which will benefit a 
third of the workforce directly and indirectly.
    Second, we need to update the overtime rules. It used to be 
that two-thirds of salaried workers qualified for overtime; now 
it is only 11 percent. Hopefully the administration will raise 
the threshold and add 6 million people to that protection.
    Third, we need to strengthen the rights to collective 
bargaining. The biggest shock to wages over the last 30 years 
has been the erosion of collective bargaining, which has hurt 
the wages of those who used to benefit from collective 
bargaining, but even more so those who benefited, non-union 
workers, whose wages were lifted by their employers who were 
fearful that they would leave the job and take a better-paying 
job.
    Fourth, we need to regularize undocumented workers. These 
workers are exploited. They earn lower wages. Regularizing them 
will raise their wages and also lift the wages of those in 
similar fields of work.
    Fifth, let's end forced arbitration, systems where 
employers force workers to not be able to go to agencies or 
courts for remedies--for wage and hour violations or 
discrimination.
    Sixth, we need to modernize our labor standards. It is not 
enough to just protect the New Deal standards; we need to bring 
new standards to allow families to mesh work and family. We 
need paid sick leave, paid family leave, and standards like 
that.
    Seventh, we need to close race and gender inequities. Many 
of the policies I have discussed will do that, but we also need 
consistent, strong enforcement of antidiscrimination laws.
    Eighth, we need fair contracting, like what the President 
has proposed. These new rules will help reduce wage theft, 
obtain greater racial and gender equity, and generally support 
wage growth.
    Last, we need to tackle misclassification, wage theft, and 
protect prevailing wages. These are all things that will help 
lift wages.
    What won't help is tax cuts. Tax cuts won't generate 
economic growth. The growth they will benefit will not 
necessarily trickle down to wages.
    The taxes paid by a middle-class family, according to CBO, 
used to be 18 percent in 1979. It is now down to 11 percent. 
That is not the problem we have faced.
    Last, it is not so much getting more people to go to 
college. It is about making sure that those people, with 
whatever degree they have, see rising wages.
    Thank you very much for this opportunity.
    [The statement of Dr. Mishel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Kline. Thank you, sir.
    Now, Mr. Greenblatt, you are recognized for five minutes.

  STATEMENT OF MR. DREW GREENBLATT, PRESIDENT AND CEO, MARLIN 
            STEEL WIRE PRODUCTS, BALTIMORE, MARYLAND

    Mr. Greenblatt. Good morning, Chairman Kline, Ranking 
Member Scott, and distinguished members of the committee. Thank 
you for the opportunity to appear before you and for holding 
this hearing today.
    My name is Drew Greenblatt, and I am the president and 
owner of Marlin Steel. I am currently on the executive 
committee of the National Association of Manufacturers and 
serve as the vice chair of its Small and Medium Manufacturers 
Group.
    Here are some facts about U.S. manufacturing: conventional 
wisdom is wrong. The United States is the world's largest 
manufacturing economy. We produce 21 percent of the global 
manufactured products created.
    More than 12 million Americans--that is 9 percent of our 
workforce--are employed directly in manufacturing. That is 
almost the population of Minnesota and Virginia combined.
    The American manufacturing renaissance is real. As 
president of Marlin Steel, I am optimistic about the future, 
and I know many of my colleagues on the board of directors of 
the National Association of Manufacturers share my view. We are 
bullish.
    At Marlin Steel we are expanding our factory floor space 53 
percent. We will be investing in new infrastructure, which will 
allow my factory to draw seven times more power--we are 
bringing in a huge copper wire--so we can grow more technology, 
more robots, more automation in our factory. Seven times more 
power.
    This automation will give us new technology, so we can hire 
more additional high-priced talent to meet our new demand.
    Marlin Steel employs 30 people, and we make custom wire 
material handling baskets, wire forms, sheet metal fabrications 
like this one right here, and we service the markets of 
automotive, pharmaceutical, medical, all kinds of industrial 
markets.
    Six of our employees are degreed mechanical engineers, and 
their innovations are what make our products first-class. They 
create our secret sauce. That is what differentiates us so we 
are not a commodity player.
    They are so talented we actually export to 37 countries, 
including my favorite country to export to, China. We are 
really proud of that. We import nothing, and we make everything 
in Baltimore City, Maryland.
    I am proud of my team. They are exceptional and by far my 
most important asset. I am also very proud to say we have gone 
more than 2,243 days without a safety incident.
    My optimism for the future of manufacturing generally, and 
Marlin Steel in particular, is tempered, however, due to 
government policies that are hindering our dynamic growth.
    In order for us to succeed, manufacturers need our elected 
leaders to choose policies that make our nation a better place 
to invest, to innovate, to headquarter, and from which to 
export. They must choose policies that strengthen our workforce 
so it meets the need of manufacturing in the 21st Century.
    Manufacturers seek a coherent strategy from policymakers in 
Washington that focus on ways we can ensure the future success 
of manufacturing in our country. We need policies that are 
grounded in free enterprise and competitiveness, individual 
liberty, and equal opportunity.
    To achieve this target, the National Association of 
Manufacturers has established four goals. We believe they are 
achievable, and if we can maintain these we will strengthen our 
country's economic advantage.
    Number one: The United States will be the best place in the 
world to manufacture and attract foreign direct investment.
    Number two: Manufacturers in the United States will be the 
world's leading innovators.
    Number three: The United States will expand access to 
global markets. We need to sell to more countries. 95 percent 
of the world's consumers live overseas.
    Number four: Manufacturers in the United States will have 
access to the workforce that the 21st Century economy demands.
    The National Association of Manufactures growth agenda can 
bring our country together and put more people to work, 
ensuring the United States always remains the brightest beacon 
of hope, optimism, and opportunity in the world. The agenda 
before the Education and Workforce Committee is an essential 
part of achieving these goals.
    Whether the work you are doing is focused on workforce, 
training, health care, immigration, labor, employment, please 
know you are shaping the trajectory of manufacturing. 
Manufacturers can compete globally, but we should not have to 
compete as an economic priority here at home.
    Thank you very much for this opportunity to testify today, 
and I am happy to answer any of your questions.
    [The statement of Mr. Greenblatt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Kline. Thank you very much, Mr. Greenblatt.
    Thank you very much to all the witnesses. This may be the 
best I have ever seen four witnesses stick to the five minute 
clock. I don't know whether we have got brighter lights or 
what, but thank you very much.
    We are going to move now to questions from the members.
    And again, I would remind all the members to limit your 
questions and the expected answer time to five minutes. The old 
filibuster for four minutes and 52 seconds and then ask a 
question--I am sorry, we will be gaveling that down.
    Okay. I will put myself on the clock, as well.
    I would like to start with Governor Pence. I may end with 
Governor Pence, too.
    I didn't realize this--I don't know how I missed it, and I 
am not surprised, but I have got a note here that says on your 
first day as governor you placed a moratorium on and began a 
review of state-level regulations.
    And then in November of 2014, Forbes Magazine identified 
Indiana as having one of the best regulatory environments in 
the country for starting a business and creating jobs. There is 
a little footnote I am looking at here. It says, ``Indiana was 
ranking number three in 2014.''
    That is probably a misprint. I think it was probably--well, 
it couldn't have been one because then you have got the whole--
okay.
    But, Governor, as you know, here in Washington we are 
continuing the flood of regulations. The Unified Agenda is just 
out, and everybody understands that the administration is 
required twice a year to tell all of us what major regulations 
in the pipeline, and there is a bunch of them.
    So, could you please discuss your concerns regarding the 
administration's regulatory what I think is excess, and to the 
extent to which it impedes economic expansion and job creation 
in Indiana.
    Governor Pence. Well, thank you for the question, Chairman.
    And I have long believed that regulation is another form of 
taxation. The government can, in the form of taxation, 
appropriate money from an individual or a business in the form 
of direct taxation, or they can tell the business or the 
enterprise how to spend that money. In the same sense, there is 
a loss of control of those resources.
    So after I was elected governor we focused both on tax 
reduction in Indiana and reform, as well as regulatory reform.
    And I appreciate the chairman's acknowledgement. We did 
sign a moratorium on any new state regulations and began the 
process of a full-scale look-back at Indiana's regulatory 
policies with a real focus on ensuring that we are protecting 
the health and well-being and safety of Hoosier workers, and 
ensuring that environmental compliance takes place, but with an 
eye toward trying to cut red tape on businesses.
    And also, although you left it out, we also did pass the 
largest state tax cut in Indiana history in my first year. I 
think a combination of these things is why Indiana's economy is 
growing, why we have added 100,000 net new jobs, why Indiana 
led the nation last year in manufacturing jobs created, and why 
in our state, as there is in the country, there is a 
renaissance in manufacturing, and I would say particularly in 
the Heartland that you and I call home, Mr. Chairman.
    But I think it does proceed out of a combination of common-
sense regulatory policies. And I strongly urge members of this 
committee, whether it be regulatory policies coming out of the 
EPA pressing down on the cost of energy that is so vitally 
important in states like Indiana, or whether it be a broad 
range of other regulatory policies, that Washington, D.C., on 
an increasing basis, begin to see regulation simply as a form 
of taxation.
    And as we think about lessening the taxation burden, as 
there is talk in this city this year about tax reform to help 
get this economy growing even further, that we would also think 
very seriously about the kind of regulatory reform that is 
helping Indiana grow our economy. But that, I also believe, 
combined with really forward thinking about education and 
particularly about workforce education.
    The truth of the matter is in Indiana we do have a skills 
gap. Even when unemployment in Indiana was over 8 percent, I 
would, more often than not, visit businesses in our state that 
would say, ``We have jobs available. We just can't find people 
with the background, the training, the industry-recognized 
certification to be able to fill those jobs.''
    And that is why in addition to tax reform and relief, in 
addition to regulatory relief, in Indiana we have really been 
focusing on redoubling our efforts to make career and 
vocational education a priority in every high school.
    I look forward in the course of the hearing to unpacking 
that further, but I think we are doing it differently in 
Indiana, and I think it accounts for our growth.
    Chairman Kline. Thank you, Governor. And I am sure that we 
are going to get at some of those things.
    I was going to talk to you about the Western Governors 
University and your relationship there, but I can see my time 
is just about to expire. I did want to point out that Dr. 
Amiridis talked about a growing regulatory framework, as well, 
that is affecting higher education.
    So I yield back and recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Governor Pence, you indicated that each high school would 
have a career and vocational education component to it. Did I 
understand that right?
    Governor Pence. Mr. Scott, in Indiana, what we have made as 
our goal is to make career--I call it career and vocational 
education--people in education know it better as career and 
technical education. But my aim is to make career and technical 
education a priority in every high school, and we are seeking 
to change the funding formula in Indiana to build on that 
commitment and encourage not only public resources but private 
resources to make that a reality.
    Mr. Scott. Now, some are concerned that this might be at 
the expense of academics. Would that be in addition to the 
academic standard and not at the expense of academics?
    Governor Pence. Well, it is really a great question, and a 
more important point. Our aim is to make sure that every 
student who goes to school in Indiana graduates with what we 
call our Core 40 college preparatory degree.
    We are talking about those electives that are on top of 
that, and making those more regionally relevant--allowing young 
people, in addition to being ready to go to college, giving 
them a chance to get the industry training, technical 
background, even industry certifications--in the event that 
they want to go to work right after high school as opposed to 
going on to some postsecondary right away.
    Mr. Scott. And the important point is that it is not at the 
expense of academics so you are not setting people aside to, 
when I was growing up, shop, or something like that, and you 
would graduate without the academic background and be burdened 
because of that for the rest of your life. You would make sure 
they have the full academics, and in addition to that, have job 
training where they can actually go and get a job?
    Governor Pence. Well, that is exactly right. But I would 
commend to the attention of all the members of the committee a 
good, deep dive into career and technical education today.
    You know, in Indiana we are very strong in manufacturing, 
but also in life sciences, in logistics, in agriculture, and in 
high-tech. And we are talking about career training pathways in 
our high schools that would give people the kind of training to 
enter entry-level positions in health care, entry-level 
positions in advanced manufacturing, and in agriculture.
    And so the idea here is much broader--you know, back in the 
day when I was going to high school you know, you and I are 
about the same age--we had industrial arts. I would tell you, 
career and technical educations today, where it is done right, 
is much broader, much more diverse, and opens up opportunities 
for good-paying jobs for young people as they step right out of 
high school.
    Mr. Scott. Thank you.
    Dr. Amiridis, you indicated--you mentioned research. Can 
you tell me what has happened to your research budget, and what 
has that done to the people who are doing the research?
    Mr. Amiridis. Thank you. Thank you for the question.
    Our research budget, both from federal and private sources, 
and a small percentage that come from the state of South 
Carolina, has been stable in the last few years. So we didn't 
have significant consequences for people who are involved.
    The importance of the research budget, not only for the 
university but also for the surrounding area, is very 
significant because a lot of people are getting paid to do the 
work there. They are living within the local economy. They rent 
houses; they buy cars; they buy groceries, and so on.
    Other institutions have seen significant decreases. 
Fortunately, at the University of South Carolina, they have 
been stable.
    Mr. Scott. You mentioned also in your prepared remarks the 
need to make sure that financial aid was available to all 
students. What happens when that financial aid is not there?
    Mr. Amiridis. You made the point very well in your opening 
remarks that one of the issues that we are facing is the issue 
of debt. Some students are able to borrow money, and that 
increases when the financial aid is not there.
    And statistics show that the student debt specifically 
increases when they don't graduate in time, in years five and 
six, because the aid is not available or because they cannot 
maintain their grades. Some people, quite frankly, drop out of 
school, and that means that they lose a significant investment 
that they have made.
    So when the aid is not there, it is bad news for the 
student no matter what, whether they drop out of school or 
whether they increase the debt.
    Mr. Scott. Thank you.
    Mr. Greenblatt, you mentioned immigration reform. Did I 
understand from your comments, your testimony, that you support 
comprehensive immigration reform? And can you say what that 
would do to the economy?
    Mr. Greenblatt. Immigration reform is extremely important 
for our nation. We need more great talent to come into our 
country--chemists, engineers. We need people that are going to 
help run our factories, come up with great innovations, and 
create companies. The nation prospers with our immigrants.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Dr. Foxx, you are recognized.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to thank our witnesses today.
    I didn't know I would get a chance to make this great 
commercial today about regulations, but there is a terrific 
bill on the floor today called the Unfunded Mandates 
Information and Transparency Act, H.R. 50, which deals with 
improvements in UMRA, which was passed in 1995, that talks 
about the need for our having more transparency in regulations. 
And I want to commend it to all of you to look at and to 
encourage your senators when the bill passes the House today, 
and I hope that it will pass the House today.
    I particularly want to thank Governor Pence for being here.
    And, Governor Pence, I am sorry to have to do this to you, 
but I have to give you my comments on using the word 
``training,'' because nobody comes into this group and talks 
about that word without hearing from me. The only thing I 
remember from my graduate work, getting my doctorate, seven 
years' worth, is that you train dogs and you educate people.
    And I believe that if we want to enhance our attitudes 
toward career and technical education is that we use that 
phrase, ``education,'' and the phrase ``workforce 
development.'' So I would urge us to think about that.
    And I think that my colleague, Mr. Scott, talking about 
things being at the expense of academics--if we do education 
right, whether it is called career and vocational education or 
it is 4-year college education, we are not going to do anything 
at the expense of what we think of as academics, because when I 
talk to employers and all the research I see is people want 
folks who can read, write, and compute. That is the basics of 
academics.
    So thank you for letting me make those comments.
    I would like to ask Governor Pence, what other steps are 
you taking in Indiana to promote college affordability, 
including cutting costs on college campuses? How are these 
efforts working and how have they helped curtail tuition 
increases, because this is a big issue for this committee?
    Governor Pence. Well, Congresswoman, thank you. Thank you 
for your strong views. I am accustomed to them with you for 
many years--and your candor.
    But let me agree strongly with what you said, on your first 
point. I like to say to people, I am not talking about a Plan A 
and a Plan B. In many ways, since the time that you and I 
finished high school we saw career education migrate on to 
postsecondary institutions.
    I am talking about two Plan A's in our schools. I am 
talking about making sure that every student has the 
opportunity to get that foundational course if they are ready 
to go off to college, but also to have the opportunity to get 
the kind of education if they want to be prepared to begin on 
their own pathway of success in their career.
    But I agree with you very strongly. A lot of this for me--
because I know there is talk of late, and there may be today, 
about community college funding.
    I think what is fresh about what Indiana is doing is we 
want to make career and technical education a priority in every 
high school. We want our high schools to work for all of our 
kids, regardless of where they want to start in life.
    But I agree with you that it is all about education. It is 
all about academics. And when you look at what career and 
technical education is today, opening up doorways of careers in 
life sciences and in careers far beyond the traditional areas 
that people think about, you couldn't be more right. And 
Indiana intends to make that a reality.
    College affordability has been a real focus of ours. I will 
tell you that from the outset of our administration, we have 
been focused on requiring publicly supported colleges and 
universities in Indiana to be more effective partners with 
Hoosier families, particularly in the area of on-time 
completion. We have seen universities, like Purdue University, 
which has frozen tuition for students.
    But, you know, what I can tell you, as someone that has got 
two kids still in college and one who has bills still 
associated with college, all I know for sure is four years 
costs less than five years; three years costs less than four 
years. And we are demanding in Indiana that our universities 
and publicly-supported institutions provide degree mapping to 
students that are working students consistently toward the 
objective of finishing on time, with the aim toward lessening 
the burden that would be placed on them in the form of student 
loans.
    I also will tell you that we are very proud in Indiana of 
our financial aid programs that are available, particularly the 
21st Scholars program that has been in place, and I'd be happy 
to talk about that.
    Chairman Kline. Governor, the gentlelady's time has 
expired. The filibuster trick worked for her.
    Ms. Fudge, you are recognized.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for being here today.
    Just for the record, let me just suggest that historically, 
the concept of states' rights has never been very beneficial to 
poor people or people of color, so I would oppose just giving 
willy-nilly money to the states for education or for any other 
thing.
    And secondly, as it relates to accountability, there may, 
in fact, be too much paperwork; I don't know. But I do know 
that there should be, certainly, some accountability for 
government and taxpayers' money.
    And with that, let me just start my questioning with Mr. 
Mishel.
    Mr. Mishel, you wrote a paper called ``Wage Stagnation in 
Nine Charts,'' and you indicate that wage stagnation has not 
been created by economic trends, but rather by policy. Could 
you tell me what those policies are?
    Mr. Mishel. Thank you very much. Well, the policies of 
omission and commission--policies that I believe have been 
taken on behalf of those with the most income power and wealth 
in our economy.
    So first and foremost, we have had excessive unemployment 
for 30 years. We have people today calling for raising interest 
rates when, in fact, that would slow the recovery. We have 
policies which have blocked the ability of laws to be 
modernized to facilitate people's access to collective 
bargaining.
    We have not kept the minimum wage value up. It fell 
remarkably in the 1980s, and still is 25 percent lower than 
what it was in 1968, when the productivity of the economy was 
half of what it is right now.
    We have trade policies which, in fact, have worked to lower 
people's wages and erode jobs.
    Let me tell you some policies that have not been 
responsible. We hear a lot about regulation and taxes. You 
might not be surprised to know that we have an economy which 
has the highest profits in four decades and the highest after-
tax profits in four decades.
    It is hard for me to see that the problem is that somehow 
business is not being able to make enough money. The question 
is, when they make that money--and more power to them--what are 
the policies that we are going to have that are going to make 
sure that as we have that kind of prosperity, it translates for 
everybody?
    Ms. Fudge. Thank you very much.
    Dr. Amiridis, you talked about the rising cost of a college 
education being passed to students and their families through 
increased tuition. Can you please elaborate for me the 
importance of federal funding in higher education, particularly 
the Pell Grant program and the need to restore year-round Pell 
Grants?
    Mr. Amiridis. Thank you for the question. Let me clarify 
that a fraction of the cost has been passed to the students 
because the universities have also absorbed a significant 
fraction of the cost--
    Ms. Fudge. Certainly.
    Mr. Amiridis.--by increased efficiencies and by cuts that 
you have to implement, and I am talking about the public 
universities that I know much better. The Pell Grants are 
extremely important for students that come from low 
socioeconomic backgrounds. Without them, they don't stand a 
chance of coming to college.
    When we are talking about graduating on time, avoiding debt 
accumulation, it is important to give to these students the 
flexibility that they need in order to succeed in this 
endeavor. And therefore, summer support for them is critical.
    This is exactly what we are doing in South Carolina with a 
year-round program, trying to give them opportunities to work 
during parts of the year and come back during the summer to 
school in order to be able to graduate on time. In the state of 
South Carolina, to its credit, the general assembly and the 
governor has supported us in taking the state scholarship 
program and extending it for the summer, as well.
    So I think it is very critical. The Pell Grants are very 
critical for a large number of our students, especially in a 
poor state like South Carolina. And year-round support for 
these students will accelerate their graduation rates on time.
    Ms. Fudge. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank the gentlelady.
    Mr. Walberg, you are recognized.
    Mr. Walberg. Thank you, Mr. Chairman.
    And, Governor, it is great to see you here. And as one who 
faithfully guards your northeast border and remains challenged 
with how to compete as a state, Michigan with Indiana, with 
some of the great things that you are doing, I believe your 
values, your moral clarity lead to a lot of great things for 
your citizens. And thank you, because that competition is good 
for Michigan to have, as well.
    I probably shouldn't go here. I would love to talk further 
about career education. But, I would give you reinforcements 
for Dr. Foxx. King Solomon said, ``Train up a child in the way 
they should go,'' so there is training there.
    But I also don't have the courage, but some wisdom, to not 
go after Dr. Foxx, so--
    Governor Pence. I am going to leave you alone on that, 
Congressman.
    Mr. Walberg.--I am going to use the word ``education'' 
today.
    I do want to talk about something a little different from 
career education. Today, one out of every three workers needs a 
state-approved license, according to the National Bureau of 
Economic Research. It is amazing the President, in his most 
recent budget, is also talking of some of the concerns 
addressed there.
    The report highlighted that state-based occupational 
licensure is a powerful drag on employment and the economy 
because they act as barriers into job markets that otherwise 
would be accessible to individuals with low skills, little 
experience and education, or entrepreneurs with limited 
capital.
    As governor, you have explored Indiana's licensure 
policies. I guess I would ask that as a question: Have you 
explored and to what level have you explored licensure policies 
and whether reforms are needed in your state and, 
significantly, other states, as well, to watch and guard 
against those impediments to jobs and employment?
    Governor Pence. Well, thank you, Congressman. And I would 
tell you, it has been an issue of our administration from the 
outset. We are in our second, what we call long session of our 
general assembly.
    Our budget session happens every two years, but in my first 
long session two years ago we proffered legislation that would 
reform our licensing process. And we continue to work in that 
category.
    I can appreciate two aspects of this. Number one is, I do 
believe that--and that statistic speaks for itself, that one in 
three requires some licensing--
    Mr. Walberg. It used to be one in 20.
    Governor Pence. And I think we need to think very carefully 
as a state, and I encourage national policy leaders to think 
about this as a nation, about when licensing, which presumably 
exists for the purpose of protecting the public, identifying 
men and women who have the background and the experience to be 
in the occupation that they are in--but when that, in fact, 
becomes a barrier to entry for people into a particular 
profession.
    In the state of Indiana we have taken up that issue. We are 
in consultation with our general assembly in this session on 
it, as well.
    But I stipulate that--your point that while I think in many 
professions licensing can be a great service to the public, so 
that people can know and understand--I do find myself more 
drawn to the principle of associations and private associations 
having the ability to certify and recognize, in some cases, 
people within their profession that they recognize. That would 
serve the public interest without adding another layer of 
bureaucracy or additional barriers to entry.
    But it is an issue we are working on. I would say it is a 
work in progress in Indiana, but it is very much on our radar 
screen.
    Mr. Walberg. I appreciate that.
    Mr. Greenblatt, as a former steelworker myself and a son of 
a machinist tool and die maker I identify with your concerns of 
being a manufacturer that is going forward aggressively, that 
is achieving, but now you need help. Let me ask you this 
question: How do we raise the profile and respect of vocational 
skills education so that it is seen as academic as well as 
vocational?
    Mr. Greenblatt. Dollars. Money.
    The average American manufacturing worker makes over 
$70,000 a year. Over 95 percent of us pay health insurance. We 
have generous vacation, 401(k) plans, in general.
    Mr. Walberg. How do we communicate that better, then, so 
that people understand that?
    Chairman Kline. The gentleman's time has expired. Yes, I 
know you were trying to do that.
    Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. At this time 
I yield my five minutes to Mr. Polis.
    Mr. Polis. I thank the gentleman, Mr. Sablan.
    Question for Dr. Mishel: You mentioned, of course, the 74 
percent rise in productivity. That is great news, right? I 
mean, we love productivity to go up.
    Now, there are different stakeholders, and what it sounds 
like is a disproportionate share of that has gone to 
stakeholders other than workers. And so I want to focus in on 
that a little bit.
    There is management. There are shareholders--sometimes they 
get productivity gains through dividends or share buybacks. 
There are corporate reserves--sometimes the money just sits 
there. There are consumers. That is a fairly egalitarian way to 
distribute productivity gains, because it is lowering prices.
    I am wondering if you have any information on who is 
benefiting disproportionately from these productivity gains. Is 
it management, shareholders, corporate reserves, consumers, 
other stakeholders? Clearly it is not the workers.
    Mr. Mishel. Well, thank you very much, Mr. Polis.
    The gains from productivity have accrued an extraordinary 
amount to the top 1 percent of wage earners, and of income 
households. That comes because of--
    Mr. Polis. So the top 1 percent of wage earners would 
generally mean management, presumably--
    Mr. Mishel. Yes. Around 40 percent of the top 1 percent 
would be executives and managers.
    Another big chunk are those in the financial sector, which 
has been a sector which has expanded dramatically over the last 
30 years and whose pay relative to everybody else has expanded 
dramatically over the last 30 years so that the--what has 
fueled the growth of the top 1 percent of income has primarily 
been the extraordinary growth of executive pay and in the 
financial sector.
    The wages of a typical worker, as I testified, only rose 
around 9 percent, even though productivity grew by 74 percent.
    Mr. Polis. So a disproportionate amount for executive 
management, the top 1 percent of wage earners. Also--I am 
trying to further read into your comments--it sounds like 
consumers and perhaps shareholders have also not 
proportionately benefited from the productivity gains. Would 
you go so far as to say that?
    Mr. Mishel. No. I would say that, you know, as I indicated 
earlier, we see the highest profits in four decades. So the 
productivity that we have reaped has been being paid out in 
profits, some of that gets paid out in dividends. We also know 
the stock market is extraordinarily high.
    So we have an economy that is unusual in that we have 
really a lot of excess capacity. Unemployment is too high; we 
all agree on that.
    And somehow the businesses are very profitable, the people 
at the top are doing very well, but nearly everybody else is 
not seeing much income growth at all.
    Mr. Polis. I would encourage us to look at productivity 
gains being passed along to consumers, as well. That is also 
very--it is an egalitarianizing influence, and policies that 
promote consumers as stakeholders should be very important.
    Want to go to Mr. Greenblatt real quickly.
    You mentioned health care and the Affordable Care Act, and 
in particular you mentioned two taxes that you are worried 
about with regard to manufacturing: the Cadillac--so-called 
Cadillac tax and medical device tax. And I just wanted to see--
and obviously when you are talking to people who don't support 
the Affordable Care Act their answer is simply, ``Repeal the 
Affordable Care Act.''
    I support the Affordable Care Act. However, like many 
Democrats, I am happy to have a discussion about different ways 
of paying for it.
    So my question to you is--of course, happy to talk about 
those particular ways of paying for it--do you have other 
proposals to replace that revenue if we were to modify or 
eliminate those particular taxes?
    Mr. Greenblatt. Just so you know, from our perspective, I 
have been--since I bought the company--giving health insurance 
to our team, and we have a very generous plan. They are on the 
same plan I am. My kids have the same plan as my workers.
    And it has typically gone up 8 to 12 percent a year. The 
last two years it has gone up over 50 percent each year. That 
is devastating because I can't pass on 50 percent to my 
competition in China and Canada, they don't have that--
    Mr. Polis. Well, to be clear, the Cadillac tax has not, as 
far as I know, hasn't started yet, so it is not--it can't be--
    Mr. Greenblatt. I am just saying our premiums and what our 
employees are feeling, what Marlin is feeling, and what 
factories in general are feeling are massive increases over the 
last two years. And it makes it more difficult to retain great 
talent and hire more talent when our costs are going up.
    The best way to improve the health care delivery system in 
our country is to give us competition. Right now I am forced to 
buy from a handful of companies in Maryland State. I would love 
to be able to buy from Nebraska, or Virginia, or whomever has a 
good plan.
    Right now I am forced to buy from a very small cartel, and 
that is un-American. So, you know, I can buy steel--
    Mr. Polis. So, reclaiming my time--
    Mr. Greenblatt.--from anywhere in the world. I happen to 
buy it from Indiana, the new--
    Chairman Kline. The gentleman's time has expired.
    Mr. Russell, you are recognized.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    Governor, it is very exciting to hear the types of policies 
that have been working.
    I am a small business owner--a small rifle manufacturer--
and I have a question for Dr. Mishel. Have you run a business 
or managed a workforce within a business, sir?
    Mr. Mishel. Well, in fact, I have 40 employees and I come 
from a family where everybody worked in a small business. My 
father was a small business man himself and a proud Republican.
    Mr. Russell. Well, that is good to know.
    And, Mr. Greenblatt, when regulations, fees, and taxes are 
imposed on businesses, do you think that they absorb that or do 
they pass that on to the pricing of their products towards 
consumers?
    Mr. Greenblatt. Two things occur. Number one, you have to 
raise the prices and you become less competitive and lose the 
job, or you take it--it is a very challenging thing and it 
really hurts American factories.
    Mr. Russell. And so would you say, then, that as regulation 
and forced things like we have seen mentioned here in the 
testimony today--higher minimum wages over time, collective 
bargaining, forced arbitration, modernization of labor 
standards--if all of those things are imposed on you, which 
class of people do you think are hurt most by such policies: 
upper class, middle class, lower class?
    Mr. Greenblatt. I think that hurts working people the most 
because we have to be competitive. We are competing with China, 
Germany, and Canada, and the only way to be competitive is to 
have a nimble workforce that doesn't have workforce rules, that 
can adjust to whatever is happening in the economy.
    Mr. Russell. Mr. Greenblatt, when you see businesses that 
have surplus, are they generous with that? Do they get involved 
with the community and outreach, even a small business such as 
your own, or is that pocketed as part of the 1 percent?
    Mr. Greenblatt. Typically, profits are used as the 
feedstock so that we can weather recessions, so that we can 
give bonuses to our employees, so we can pay for education for 
our team. Matter of fact, at our company we pay 100 percent of 
everybody's college education, associate degree education, or 
master's degree.
    Mr. Russell. And you had mentioned that six of your 30 
employees are mechanical engineers, which is very admirable, 
and it shows your strong productivity with such a small 
workforce. I am guessing they are paid higher than minimum wage 
to attract competitive people to work for you?
    Mr. Greenblatt. Our lowest-paid person is paid three times 
more than minimum wage, and they typically rise very quickly. 
They start off at minimum wage--I am sorry, they start off at 
like $15 an hour, but as they learn more skills they grow. 
Typical manufacturing employee is paid over $70,000 a year.
    Mr. Russell. And so you, sir, as a business owner, then, if 
you want to remain competitive, you have to provide competitive 
wages or you would lose that skilled workforce?
    Mr. Greenblatt. Absolutely. You have to pay very well so 
that you can retain and attract great talent.
    Mr. Russell. And to you first, sir, and then anyone who 
would like to answer, what--particularly on manufacturing, 
would be the impact of excise taxes, where you are taxed just 
for the privilege of having made something, in addition to the 
end-of-year business profits and then your personal taxes? Can 
you explain a little bit about the impact of just the privilege 
of having made something getting hit with excise taxes on U.S. 
manufacturing?
    Mr. Greenblatt. These taxes and regulations are very 
cumulative, and they weigh on manufacturing. For example, in my 
company we pay over 40 percent in taxes. I compete with 
Canadian companies that make similar things that I do; they pay 
15 percent in taxes. We are at a massive disadvantage.
    If you want to grow American manufacturing jobs in 
Baltimore City, the best way to do it is to lower the burden so 
we can hire more talent, we will be more price competitive, we 
will win more jobs, we will hire more people, we will end 
unemployment.
    Mr. Russell. Thank you, Mr. Chairman. I yield back my time.
    Chairman Kline. Gentleman yields back.
    Ms. Wilson, you are recognized?
    Ms. Wilson of Florida. Thank you, Mr. Chair, and to the 
Ranking Member, for holding this hearing on this important 
issue.
    Since coming to Congress, I have urged Congress to make its 
priority a jobs-first agenda. When we invest in our people by 
providing an opportunity to earn a living wage then they are 
able to provide for their families and pay taxes. That is how 
we improve our success as a nation.
    The President has made remarkable progress over the last 
six years reviving a struggling economy, including 58 
consecutive months of private sector job growth.
    Despite significant economic progress, many families are 
finding that they are simply unable to make ends meet. Nearly 
11.2 million remain unemployed; millions more are underemployed 
or have given up looking for work.
    According to a recent report by the Center for Economic and 
Policy Research, African-Americans who have earned much higher 
average levels of education over recent decades have lower 
chances of earning a living wage today than they had 30 years 
ago. Today, a parent working full time at minimum wage will 
simply not earn enough income to cover basic needs like food, 
clothing, and shelter. It is mathematically impossible.
    Working families are the backbone of this country. When we 
give working families the opportunity to earn a well-deserved 
living wage, paid sick leave, and overtime pay, we keep our 
country moving forward.
    Thank you for testifying today, Dr. Mishel. I wanted to ask 
you to expand on your comments about sick leave and paid family 
leave. We know that these are particularly important policies 
for working families.
    Would you comment on how many workers today do not have 
sick leave in this country? Could you also talk about how we in 
America compare to other countries in regards to modernizing 
labor protections like sick leave and paid family leave?
    Mr. Mishel. Well, thank you very much for your question. I 
don't have the specific numbers in front of me, but I think 
everybody knows that the United States provides less ability to 
get paid leave for sick leave, for family leave, than almost 
any other advanced country and even many developing countries.
    The people who don't have access are, in fact, those people 
with, you know, working-class jobs. Those who are white-collar 
are more likely to be able to get those.
    So what we really have is a problem of those with the least 
not really being able to do what they, you know, to be able to 
balance work and family. And that keeps women out of jobs; that 
hurts families.
    We need to make sure that everybody is able to do that, and 
it is part of modernizing our standards.
    Cities and states are starting to do it. We have three 
states that have paid sick leave, and I haven't seen all the 
businesses go out of business there.
    Ms. Wilson of Florida. Doctor, you mentioned decreased 
funding for instruction at the state level and for research at 
the federal agency level. Can you discuss the importance of 
federal research funding for your university?
    Mr. Amiridis. Thank you for the question, Ms. Wilson.
    It is extremely important for the public research 
universities to be able to compete. And we are not asking for 
federal funds to be given to us; we are asking for funds that 
are available for the universities to compete with new ideas in 
order to advance science and technology.
    We have seen what this has done for this country, how this 
country has been a technological leader for the last few 
decades, and we need to remember that this was not always the 
case. It was not the case at the beginning of the 20th Century, 
for example, and we have seen how the universities have 
contributed to the advancement of technology and science in 
this country, with direct effects on industry and manufacturing 
eventually.
    I am concerned, as many are at the university level that 
decreased federal funding for research and development, 
especially academic research, is creating a deficit with other 
countries that they have stepped in and they have provided 
significant research funding, and eventually we will have to 
pay the price or we lose the technological advancement 
worldwide.
    So I think it is extremely important for my university and 
for all research universities.
    Ms. Wilson of Florida. Thank you.
    Mr. Greenblatt, would comprehensive, bipartisan immigration 
reform help the economy? You know that the Senate has taken up 
a bipartisan immigration reform bill. Do you think the House 
should follow suit and take up immigration reform, as well?
    Chairman Kline. The gentlelady's time has expired.
    Mr. Grothman, you are up.
    Mr. Grothman. I want to talk a little bit to Governor 
Pence.
    Glad you are here. We heard a comment a little while ago 
kind of denigrating shop classes, and first of all, I didn't 
really like it. I mean, on behalf of so many of the people in 
the state of Wisconsin, I detected a little bit of careerism 
there, kind of implying that some training is better than 
others, and I really didn't care for that.
    But are there jobs available in Indiana? I mean, we always 
talk about, you know, the number of people who are unemployed, 
but, first of all, Indiana and Wisconsin are the two biggest 
manufacturing states in the country, percentage-wise, so we 
have something in common.
    Governor Pence. Indiana is number one.
    Mr. Grothman. Right now, right? Right? It goes back and 
forth.
    In any event, do you have job openings in Indiana?
    Governor Pence. Yes, we do, Congressman, most certainly. 
And we are working every day to close the skills gap with adult 
workforce initiatives in Indiana.
    But what we want to do in the Hoosier State that is really 
new is we want to make sure our high schools work just as well 
for our kids that want to start their career as our kids that 
want to start off in college, and that is why we have made it 
our aim to make career and technical and vocational education a 
priority in every high school.
    Mr. Grothman. Do you have any idea how many jobs are 
advertised or job openings there are? Do you have any anecdotal 
evidence from your businesses as to whether they could expand 
if they could find the workers?
    Governor Pence. I can get you the updated information. Last 
year, in the state of Indiana, we actually added about a little 
more than 25,000 jobs in the manufacturing sector. We have seen 
our workforce grow in the last year by more than 50,000 in 
Indiana.
    But at 5.8 percent unemployment, I can assure you, as I 
travel across the state of Indiana, there are still positions 
in our state in a broad range of industries--not simply 
manufacturing, but in life sciences, in health care, and in 
insurance--that are going unfilled today because people can't 
find individuals with the background and the training to fill 
them. So there are jobs available and we are trying to close 
that skills gap every day in Indiana.
    Mr. Grothman. Okay.
    One quick question for Dr. Mishel. My experience in 
Wisconsin is similar to Governor Pence's. When I go around I 
think maybe the--I don't know if it is the number one, but 
probably the number one problem for most of my employers is 
they can't find people to work.
    You kind of dismiss the skills gap, and I wondered exactly, 
particularly in manufacturing, who you are talking to that you 
feel that is not a major problem. And I look at it from both 
ends. Obviously I was a state legislator in Madison; I see so 
many college graduates not getting jobs that you would expect 
for a college degree. And again and again and again I find 
business owners who complain they can't find anybody to work, 
despite this unemployment problem.
    And it concerned me a little bit that somebody in your 
position kind of was dismissive on the skills gap. I mean, do 
you get out there and talk to business owners, particularly to, 
say, Mr. Greenblatt next to you, on this idea that the skills 
gap isn't a major, major cause for concern?
    Mr. Mishel. I would draw my conclusions based on two 
things. One, as an economist, when you hear the idea of a 
shortage you would look for evidence that the wages being 
offered by employers keep on getting ratcheted up, and 
therefore, not able to find work--the appropriate workers. What 
we see across the board, and not in just maybe a few 
occupations, but across the board we don't see wages rising 
very much at all, so it is hard to see the employers bidding 
up.
    Secondly, I commissioned work by two MIT professors, Paul 
Osterman and Andrew Weaver. We published their work last year. 
They did a survey of manufacturers, and they found that nearly 
65 percent of establishments report that they have no vacancies 
whatsoever, and 76 percent report they had no long-term 
vacancies--in other words, jobs which have remained unfilled 
for three months or more.
    Only 16 percent responded affirmatively when asked whether 
they, quote--``Lacked--lack of access to skilled workers is a 
major obstacle to increased financial success.''
    Mr. Grothman. Do I have about one second left here?
    Chairman Kline. You have 14 seconds.
    Mr. Grothman. Well, Mr. Greenblatt?
    Mr. Greenblatt. That is not the experience of most 
factories. Skills shortage is a huge problem. We have over 
600,000 jobs that we could get hired in today--machinists, 
welders--it is awful out there, and our experience is that this 
is holding back our growth, this is holding back employment. 
When you hire the skilled talent what happens is then other 
people need to be hired around them.
    So we need our school systems to start creating talent so 
that we could hire these people and get the economy really 
going again.
    Chairman Kline. The gentleman's time has expired.
    Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for testifying today.
    I am very glad we are having a hearing about expanding 
opportunities in America's schools and workplaces. I do join 
Ranking Member Scott to say that I am disappointed that we 
aren't having a hearing about the expanded opportunities in 
America's schools that would come from a good, bipartisan 
reauthorization of the Elementary and Secondary Education Act.
    Today's hearing is just a day after the unveiling of a 
major rewrite of the ESEA, and apparently just a week before 
that bill will be marked up and rushed to the floor. And with 
all due respect, it is truly unfortunate that my colleagues and 
I and many new members of the committee don't have the 
opportunity to hear leaders and stakeholders testify about what 
is a very important reauthorization.
    We should be listening to experts, having their input 
inform decisions about the details about the ESEA, especially 
given the magnitude of the law. Now, clearly my colleagues and 
I wanted to replace No Child Left Behind with provisions that 
are less rigid and prescriptive, but the process has lacked 
transparency and the kind of open dialogue that can yield 
consensus.
    Hearings show our constituents that we are serious about 
crafting policies that incorporate new evidence and thoughtful 
feedback, and the American public deserves an open process, 
deserves to see their policymakers wrestling with challenging 
questions. And without transparency and the assurance that many 
voices will be heard, it is harder for students, families, and 
educators to have confidence in the process.
    Now, I know about the ambitious timeline, but something 
this important deserves a thorough and open process, so I hope 
that the committee will reconsider and hold hearings on the 
ESEA reauthorization.
    And now I want to follow up on the CTE discussion, career 
and technical education discussion. I am not going to call it 
training, even though Ms. Foxx is no longer here.
    Now, I have found over the years that many of these courses 
have been eliminated, either because of budget concerns or 
because they aren't tested, and the high stakes that are 
associated with the courses that are testing. And they are very 
important, hands-on learning opportunities. Mr. Greenblatt 
recognized that.
    Governor Pence, you did, as well.
    And in my school tours I have seen things like fabrication 
labs, with CAD software and 3D printing; I have seen a girls-
only welding class that has a waiting list to get in.
    And I want to especially ask you, Mr. Greenblatt, you talk 
about innovation and employees who can help drive innovation. 
Your goal number two, in fact: Manufacturers in the U.S. will 
be world-leading innovators.
    So I have spoken with companies like Intel, the largest 
private employer in my district, Boeing, and Lockheed Martin 
about how do we educate a generation of innovative workers, 
especially since a lot of these creative opportunities have 
been cut? So we need skilled workers, but we also need people 
who can think outside of the box.
    So how can education support the need for innovative 
workers, not just good test-takers?
    Mr. Greenblatt, what are your thoughts?
    Mr. Greenblatt. Creativity is critical. When we interview 
our engineers, we are looking for ones that can think outside 
the box and not do exactly what they are told. We are not 
looking for people with just book-smarts.
    The people that do well in our company are the ones that 
are not just rigid; they are innovative. So we welcome that, 
and we compensate them and give them bonus checks if they come 
up with slick ideas, and we welcome and embrace that kind of 
input. And I think that should be a model that all companies 
follow.
    Ms. Bonamici. Terrific. We have a lot of opportunity with 
ESEA policy to help drive creative education.
    I am going to ask Dr. Amiridis if you want to comment 
briefly on that, but I also want to ask you to talk about--of 
course, the rising costs of higher education concerns many, and 
you mentioned that. But you also mentioned that your university 
has modified its financial aid program to support students 
during the summer. So can you explain how year-round Pell 
Grants would support the efforts at your university and help 
accelerate the time to degree?
    Mr. Amiridis. I cannot pass the opportunity to add, in 
terms of the question how do you educate innovators, and 
Plutarch, in the first century A.D., said that the mind is not 
a vessel to be filled, but it is a fire to be kindled. You 
light fires one at a time and you light fires by combining 
curricular and extracurricular activities, by advising and 
mentoring students, and by helping them to learn how to think 
outside of the box.
    It is not the university that reorganized its scholarship 
program; it is the state of South Carolina, actually, with full 
bipartisan support from the general assembly and from the 
governor's office. And it is extremely important, I believe, in 
order to give, again, the flexibility to the students to be 
able to do the things that they need to do to develop these job 
skills and this innovative spirit and graduate on time.
    That is why I think Pell Grants for the summer period are 
important, because it will give the federal component of what 
we are already providing in the state.
    Ms. Bonamici. Thank you very much.
    I see my time is expired. I yield back.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Chairman.
    Governor, great to see you.
    Governor Pence. Great to see you, Congressman.
    Mr. Thompson. My pleasure.
    I wanted to really focus on an area of passion of mine, 
which is career and technical education. Having served now for 
a number of terms as co-chair of that caucus, and I believe we 
need a strong partnership, obviously, with our state capitals. 
You know, a lot of the really necessary work is going to occur 
there, but we have to show some leadership here, as well, in 
Washington with career and technical education.
    In fact, in October--late October--I hosted a career and 
technical education hearing at our state capital in 
Pennsylvania. It was bipartisan, and we actually had members of 
the state legislature that joined us. It was rather unique.
    And we had great witnesses. We had a witness from a labor 
union, who talked about the hundreds of thousands of jobs that 
are open and will be open that we just cannot find qualified 
and trained workers, or employers struggle to, you know, to be 
able to fill.
    And I apologize. I stepped out because I just had a 
briefing with our trade representative Michael Froman, as we, 
you know, work on TTIP, and TPP, and in my mind, one of the 
things that is necessary with trade agreements is we need a 
robust career and technical education program to ensure 
America's competitiveness with these.
    We are going to increase trade, we want to make sure that, 
you know, from a purely selfish perspective, that we are moving 
more trade, more products, agriculture, commodities, to other 
countries. But if we don't have that qualified and trained 
workforce, you know, we are not going to ultimately be as 
successful with any of the trade agreements. I think it goes 
hand in hand.
    And so I wanted to get your perspective because I know that 
is something that you have been very supportive of, and I 
really just wanted to ask your perspective, in terms of CTE and 
what do you see as good models? What do we need to do?
    Governor Pence. Well, first, Congressman, thanks for your 
leadership in the caucus on this issue and for helping to bring 
it to such a national focus. I commend you for that.
    I will tell you, it is our intention that Indiana would be 
the first state in America to make career and technical 
education a priority in every high school again.
    And I remember my days in Congress. There aren't too many 
things that passed unanimously, other than naming post offices. 
But I can tell you that the legislation that we moved to create 
a statewide career council and then 11 different regional works 
councils to rethink high school curriculum on a regional basis 
for career and technical education passed our general assembly 
unanimously--two different pieces of legislation, and was 
cosponsored by the Republican and Democrat leadership of the 
House and the Senate in Indianapolis. I mean, this is an idea 
whose time has come.
    And I would just say to you two things that may inform your 
leadership on this and your thinking on this. Number one is, I 
just urge the Congress--there is so much focus in this area, as 
you know, there have been headlines of late about community 
college. For decades we have talked about career education as 
postsecondary education.
    Let me say again, in Indiana, where we are innovating is we 
want to make career and technical education a priority in our 
high schools again. I am somebody that believes that all honest 
work is honorable, and our high schools ought to work just as 
well for our kids that want to get a job as for our kids that 
want to immediately go off and get a degree.
    So that is ``A.'' I would just encourage policymakers here 
in Washington to think of ways to give states greater 
flexibility to innovate in secondary education.
    The second thing is I would just encourage you with a word. 
I think many states are ready to go in this space; there is a 
manufacturing renaissance underway, and there is a skills gap.
    And there is a recognition, I cite our former colleague, 
Mary Fallin, now Governor Mary Fallin, who made this issue her 
top priority when she served as chairman of the National 
Governors Association a year ago. And I can tell you, in 
bipartisan gatherings among governors, where, just like in 
Congress, there is the occasional disagreement, there is not 
much disagreement on this issue.
    And so I would just urge you on, both in your role in the 
caucus and here on this committee, to do all you can to empower 
states with not only greater resources, as they are 
appropriate, but more importantly, greater flexibility and the 
encouragement to think about making career and vocational 
education a priority in every high school again. I do believe 
it can have a transformative effect on the future of our kids, 
their opportunities, and, of course, our economy.
    Mr. Thompson. Thank you, Governor.
    Thank you, Chairman.
    Chairman Kline. Thank the gentleman. His time is expired.
    Mr. Pocan.
    Mr. Pocan. Thank you very much, Mr. Chairman.
    And thank you, to the panelists, for being here today.
    I would like to try to get into two areas, at least if I 
can, on education and also on productivity--the dichotomy 
between productivity increases and declining wages. Let me 
start with education, if I can.
    And nice to meet you, Governor Pence.
    Wisconsin is a state, like Indiana, that has been one of 
the early adapters to the experiment of taxpayer-funded 
vouchers. Unfortunately, in Wisconsin we haven't had very good 
success in this area. In fact, recently they did a test of the 
scores of the kids in those taxpayer-funded voucher schools 
versus the public schools in reading and math, and they are 
significantly less in some areas in performance in those 
schools.
    But one of the other things we found is that a large 
percent of the people--the kids getting the money to go to 
those private schools already are attending those private 
schools. In the last expansion we did in Wisconsin, 79 percent 
of the people who got the vouchers were already attending that 
school, so it wasn't really anything about improving the public 
schools. And I know that--I think there was a study in Indiana 
that said about 40 percent, so not as much as 79 percent, but 
are already attending a private school. Can you just share with 
me a little bit the thought behind how investing--how you 
improve your public schools by giving the taxpayer dollars to 
people who are already attending other schools, how that helps 
to improve public schools?
    Governor Pence. Well, number one, thank you for the 
question and the thoughtful nature of your comments.
    With all due respect to Wisconsin, we think school choice 
was kind of born in Indiana. And what may affect those numbers 
you are referring to is Indianapolis was actually home to the 
very first privately funded educational scholarship program in 
America. Virtually every major city in the country today now 
has a scholarship program for underprivileged kids.
    In the early 1990s we had a local executive by the name of 
J. Patrick Rooney, now deceased, who privately funded 50 
percent scholarships for disadvantaged kids to attend private 
schools, and I would be happy to drill down on that data, but I 
expect that may have contributed to some of the underlying 
statistics you referred to.
    I just simply believe that competition makes everybody 
better, and that allowing parents to choose to send their child 
to a different public school, to a different public charter 
school, or in the case of disadvantaged kids, to allow them, if 
they so desire, to send their child to a private school. It 
actually improves educational outcomes overall.
    I mean, I have been married to a school teacher. She spent 
half her career in public school, half in a private school, and 
I really do believe there is nothing that ails our schools in 
this country that can't be fixed if you give parents more 
choices and teachers more freedom to--
    Mr. Pocan. If I can just take off right on that too, 
because in Wisconsin one of the questions we have had, too, is 
on the accountability. And if I understand it right, in Indiana 
the Department of Public Instruction isn't allowed to audit the 
current program that you have, so how do you measure that 
accountability in those programs?
    I mean, when we first started ours we had all kinds of 
crazy things. We had money going to schools where the person 
who founded the school said he could read a book simply by 
placing his hand on the book; we had people buying Cadillacs. 
In fact, I think I understand there was a church in your area 
who said they took the money to improve their air conditioners 
and all these other things.
    How do we get that accountability on education--when we say 
we want to have competitiveness, because we want to try it as 
an experiment, but how do we get the accountability?
    Governor Pence. Well, we have a strong accountability 
system in Indiana, an A to F system that was established a 
number of years ago. And four out of five of our voucher 
students in Indiana attend A- or B-rated schools in our state. 
And I do think accountability is important.
    I would like to see more flexibility from the federal 
government on accountability. When I was in the Congress many 
years ago, I was one of a handful in my party that opposed No 
Child Left Behind when it came to the floor in 2001 because I 
believe that education is a state and local function.
    And I would continue to reflect that to my former 
colleagues and to leaders in both parties. My hope is that 
Washington will provide resources, not red tape, give states 
flexibility, because I think Indiana is emblematic of a program 
where we have expanded innovation, we have strong 
accountability, and we are seeing educational and, more 
importantly, student achievement improve as a result.
    Mr. Pocan. Mr. Chairman, I saw the yellow light come up a 
while ago. I am going to yield back because I know you like 
that.
    Chairman Kline. I thank the gentleman. You get extra gold 
stars for that, which are of no value, of course, but you can 
have them.
    Mr. Allen.
    Mr. Allen. Yes, sir.
    And I want to thank the panel, too, for being here.
    And, Governor, thank you for all the efforts that you are 
making there in Indiana on education. And, of course, one of 
the things that I have talked to some college presidents the 
last couple of days, and I know our own governor in Georgia, 
but the federal government has a habit of making the assumption 
that the states don't know how to deal with educating our 
students. And then, of course, the states and the local boards 
have some conflicts, as well.
    How in the world do we eliminate that--I mean, get 
everybody on the same page? In other words, the federal 
government needs to understand its role, the state needs to 
understand its role, and the local boards need to understand 
their role.
    You know, I would prefer to give it to the local boards and 
have a bottom-up style, versus a one-size-fits-all style. Have 
you seen any models in your state that, from the local board 
standpoint up through the state, and models that even the 
federal government can say, ``Hey, let's leave those folks 
alone and let them do what they are doing?''
    Governor Pence. Well, we are very proud of our record in 
Indiana, and the policies--curriculum policies, textbook 
policies--are established at the local level and driven by 
parents and administrators in local communities, and that is as 
it should be.
    But let me strongly agree, Congressman, with your 
assertion. I think education is a state and local function, and 
the role of the federal government ought to be only that which 
may provide resources, catalyze innovation, that are in the 
broader national interest.
    But I believe that whether it is standards, whether it is 
curriculum, whether it is textbooks, that those ought to be 
decided and those decisions resolved at the state and, more 
preferably, the local level. And we have sought to emulate that 
in Indiana.
    And I really do believe that as the Congress takes up 
legislation in this area, that placing real emphasis on giving 
states additional flexibility to innovate--I mean, we are proud 
of our record in Indiana. We are proud of our record in 
traditional K-12 education; public charter schools; our voucher 
program, now the largest in the country; our focus on expanding 
and being the first state in America to make career and 
vocational education a priority in every high school.
    And frankly, as I talk to colleagues around the country, I 
have a lot of inquiry about Indiana's education policies. And, 
as the old book says, iron sharpens iron.
    And I would just encourage the leadership here in the 
Congress to think about how we can catalyze state-based 
innovation and reform in education, and then you will see the 
best ideas identified because you will see student achievement 
resulting from that. We are seeing that in Indiana. Test scores 
are up; graduation rates are up; second-best improvement in the 
Nation's Report Card.
    And I do think that competitive federalism is especially 
important in this area in the life of our nation today, and I 
would encourage you to look for ways to restore the flexibility 
to state and local governments in this area.
    Mr. Allen. You know, my mom and dad were educators and, of 
course, we sat around the kitchen table at night--you know, my 
dad says, ``You give me a better student and I will give you a 
better education system,'' and, you know, some students are 
motivated, others aren't.
    And, you know, in states we compete for manufacturers. We 
compete like crazy for manufacturing jobs. Yet, the number one 
decision with manufacturers is, do I have a skilled workforce?
    I mean, as far as a skilled workforce--Mr. Greenblatt, I 
want you to comment on this, as well--how do we motivate these 
students to get the kind of education they need to fulfill the 
jobs of the future with where we are going in manufacturing 
today?
    Governor Pence. Well, I think, you know, for me education 
always should be--and I didn't know I would leave today with a 
Plutarch quote, but I am glad I did. That was really powerful.
    For me, education should always be about letting young 
people discover their God-given abilities and to develop those, 
and when they find those abilities and passions, everything 
else about their academic life will get better, as well. And 
that is why we are seeking to make career and technical 
education a priority in every high school.
    I am absolutely confident not only will it result in 
students graduating with the background and training to be able 
to get good jobs, but I know it will increase our graduation 
rates, it will increase their passion for education, and it 
will kindle a fire in their hearts and minds for a broader 
future.
    Chairman Kline. Sorry, the gentleman's time has expired.
    Mr. Hinojosa?
    Mr. Hinojosa. I want to join Chairman Kline and Ranking 
Member Scott in expressing our best wishes to my friend, 
Congressman Roe. I will keep his family in my thoughts and 
prayers and hope that he will soon be able to return to 
Congress.
    While our economy has come a long way since the Great 
Recession, starting back in 2008, wages for middle-class and 
working-class families have remained stagnant. I was in the 
Congress in 1998, when we were able to raise the minimum wage.
    That was 16 years ago. Just take the inflation rate and see 
what today's rate--minimum wage is and how it hurts many 
working families.
    I am also concerned that the United States has also failed 
to provide all students with equitable access to a high-quality 
education. In my view, this committee must ensure that all 
Americans, not just the wealthy 1 percent, are benefiting from 
our current economy's growth.
    I want to go to the first question to Dr. Mishel.
    In your testimony you indicate that in 2012 the top 10 
percent captured 48 percent of the market income, exacerbating 
income inequality for millions of Americans. Can you tell us 
shortly, just briefly, how raising the federal minimum wage, 
would improve the lives of Americans and strengthen our 
economy?
    Mr. Mishel. Thank you for the question.
    The answer is that the minimum wage essentially sets the 
wage for the bottom fifth of workers. Those workers now earn 
substantially less than they did in 1968, even though the 
productivity of the economy has doubled and the workers in the 
bottom fifth have substantially more education than they had 
back in 1968.
    So raising their wages will actually improve, obviously, 
their lives and lives of their children and their ability. They 
will consume more. It is actually something that will help the 
economy.
    Mr. Hinojosa. Thank you.
    Governor Pence, I enjoyed serving with you while you served 
in Congress, and I will ask you one or two questions.
    Last year you refused an opportunity to receive up to $80 
million in federal investment for preschool development grants 
in early childhood education for Indiana. I believe that would 
have helped 2,000 children access pre-K. How are you planning 
to fund your pilot pre-K program that you mentioned?
    Governor Pence. Well, first, allow me to reiterate that it 
was a great pleasure to serve with you in the Congress, and it 
is good to see you again, Congressman.
    Let me say, in the last two years, as governor of Indiana, 
I took time to travel across our state and learn about quality 
pre-K education. And I came to the conclusion that, first, I 
will always believe that the best pre-K education is a 
prosperous family that can provide the enrichment in the home 
that every child deserves.
    But over my first year in office, traveling around the 
state, I became convinced that we needed to open doors of 
opportunity to disadvantaged children in the state of Indiana 
for quality pre-K education. I took my case to the Indiana 
General Assembly in the year 2014.
    Indiana was one of only a handful of states that made no 
investment in quality pre-K education. But I went to the 
legislature; I made it a priority in our administration. I 
thought it was important that we cross the threshold and we 
begin to open doors of opportunity to disadvantaged kids.
    Every child deserves to start school ready to learn, and 
quality pre-K education that can make up for what is lacking in 
the enrichment in the home, I believe, would be a great benefit 
to Hoosier kids--
    Mr. Hinojosa. I am glad to hear you say--
    Governor Pence. We worked for that--if I may, Congressman, 
we worked for that, we passed, through our legislative process, 
a pilot program. Five Indiana counties. We actually launched 
that program last month, and this fall we will have more than 
1,000 students in the pilot program.
    And we are doing it the Indiana way. We are looking at it, 
we are opening doors for disadvantaged kids, we are studying 
it.
    And my aim was to keep faith with the objective of our 
legislature, to simply begin a program with our state dollars, 
which we will fully fund in the next two years at $10 million 
per year, and learn from that program and then explore ways 
that we can expand opportunities to more quality pre-K in the 
years ahead. That was the basis of our decision with regard to 
federal funding, and I stand by it.
    Mr. Hinojosa. Thank you, Governor.
    Chairman Kline. Gentleman's time has expired.
    Mr. Carter?
    Mr. Carter. Thank you, Mr. Chairman.
    And thank you all for being here. We appreciate your 
presence here today.
    Mr. Greenblatt, like yourself, I am a small business owner. 
I own three independent retail pharmacies, and the last thing I 
ever want is people telling me how--and particularly the 
government--to run my business, and particularly how much I am 
supposed to be paying my employees.
    Now, like you, I have well-compensated employees, but I 
also have students that I use. Do you use any students in your 
business?
    Mr. Greenblatt. No. We just hire full-time workers.
    Mr. Carter. Okay.
    In my case, I use students, and if I were to--Dr. Mishel, 
if I were to be required to pay them $12.50, I wouldn't be able 
to use them. Now, what is that going to do to that particular 
sector if the government does raise the minimum wage to $12.50?
    Mr. Mishel. Well, we are talking about $12.50 in 2020, and 
there has been extensive study of raising the minimum wage 
across the states, and I don't think it will actually adversely 
affect the employment of young workers whatsoever.
    There are provisions in the minimum wage legislation that 
actually let young workers get paid a little bit less than the 
minimum wage, but employers rarely even use it. And the reason 
is they don't want to have people working side by side earning 
different wages.
    So I actually think the higher the wage, they will probably 
have more time for their studies, they will probably be able to 
work less, and they will be able to help their families more.
    Mr. Greenblatt. The real minimum wage is zero. They won't 
get hired.
    Mr. Carter. That is exactly right, and I couldn't agree 
with you more.
    And, Mr. Greenblatt, if I could, if I could expound on this 
a little bit more, you mentioned the Affordable Care Act and 
the impact it has had on your business, and I can attest to the 
impact it has had on my business, as well--increased premiums, 
costs that I have had to incur as an employer, and I am sure 
that is the same--
    Mr. Greenblatt. Yes.
    Mr. Carter.--experience that you have had.
    Mr. Greenblatt. It is terrible.
    Mr. Carter. It is. Thank you.
    Governor Pence and Dr. Amiridis, while I served in the 
Georgia State Senate I had the honor and privilege of serving 
as the chair of higher-ed, and one of the concerns that we had 
in the state of Georgia was increasing the number of college 
graduates and certificate holders, because we recognized the 
fact that in the coming years they are going to--the jobs that 
are going to be available are going to be available to that 
particular group.
    One of our initiatives has been Complete College Georgia, 
and that is to get people--Dr. Amiridis, as you mentioned 
earlier--who have some college to go back and to finish their 
degrees. Have you had any experience in Indiana or South 
Carolina where you have dealt with this and something that has 
been successful?
    Mr. Amiridis. The program that is in my testimony, 
Congressman Carter, is exactly about this. Palmetto College, 
which is a statewide program that we started online, is 
focusing on degree completion. People who have done two years 
either at the university, community college, or a technical 
college, and for reasons that--because life happens--are beyond 
their control, they are no longer enrolled.
    They have families, they are parenting--they are targeting 
older parents. They are not able to be present on a campus. We 
gave them the opportunity to be able to come back online and 
complete their degrees.
    It has been a great success for us. The program exists for 
two years. We have enrolled more than 1,000 students.
    Forty-three out of the 46 counties in the state of South 
Carolina are represented in the program, which means that it is 
widespread throughout the state. Forty-eight percent of them 
are members of underrepresented minorities, so there is a need.
    And I think there are ways that we can do it with low cost, 
using technology, because these people, you cannot expect them 
to drop everything and come back to campus for two years. And 
our Palmetto College is a very good example that is receiving 
national attention along these lines.
    Mr. Carter. Governor?
    Governor Pence. Well, first, let me commend you for the 
focus on exactly those people in our state who have, as you 
mentioned, went to college, didn't complete, have credit hours. 
And our commission for higher education has made special 
emphasis on reaching those Hoosiers and explaining to them the 
opportunities that we have, either to return to college, to 
pursue part-time degrees. But it is a real focus of our 
administration.
    I am also pleased to say that WGU has a very robust 
presence in the state of Indiana, providing exactly the kind of 
online education that the professor just described, and just in 
the last two days announced some great graduation rates for 
adult learners. The ability to take advantage of technology, we 
think, is a key component to encouraging Hoosiers to go ahead 
and finish that degree, and then be there in that new economy 
that, as you mentioned, increasingly, as we all know, is going 
to require postsecondary attainment.
    Chairman Kline. Gentleman's time has expired.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, to all the witnesses, for being here today.
    Mr. Chairman, I have an article which I am going to ask to 
be admitted to the record. The title of this--it was published 
a couple days ago in the Hartford Courant, our largest daily 
newspaper in the state. The headline is ``Connecticut's Hiring 
Hasn't Been This Good Since 1998.''
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Mr. Courtney. Job growth in 2014 was the strongest it has 
been in Connecticut since 1998, with 26,700 new net jobs. 
Again, that is a higher number than the entire--the 21st 
century.
    And I say that not just to boast about my state, which I am 
always happy to do--we dominate basketball now. Governor, 
sorry. Men and women's.
    [Laughter.]
    But again, this is a state which also has the highest per 
capita income, and it is also a state which last year raised 
the minimum wage. Governor Malloy was the first governor in 
America to lead the fight to raise the minimum wage. It passed.
    We also passed a paid sick leave law, up to 10 days, again, 
with an exemption for the mom-and-pops. But the fact of the 
matter is that these policies occurred despite all of the 
catechism that we hear over and over again on the Hill here 
about, you know, how harmful that would be to growth, and yet 
we have had the best growth since 1998.
    And you have already addressed the minimum wage, Professor 
Mishel. If you could talk about paid sick leave in terms of, 
you know, the impact it has, aside from having sick people 
coughing on your food in restaurants, which nobody wants. I 
mean, what are the benefits, in terms of the workforce, when 
those policies are implemented, and how it is not antithetical 
to growth?
    Mr. Mishel. Well, thank you very much for your question. 
Nice to see you again.
    I was asked earlier how many people get paid sick leave, 
and I didn't have the answers. My handy research assistant 
provided them to me.
    The top 25 percent of workers in terms of pay, 84 percent 
of them get paid sick leave. But the bottom 25 percent, only 30 
percent have paid sick leave.
    So, you know, we have experiences in New Jersey, 
California, and Connecticut that indicate that doing these 
things doesn't hurt jobs, doesn't hurt the economy. Obviously, 
people don't want to be faced with the choice of having to not 
show up at work or leave someone sick at home.
    This is something that falls most heavily on women, and so 
if we really want people to be able to participate in the 
economy, and just a matter of common decency, I think, is to 
make sure that people have some kind of minimal benefit like 
that.
    May I pause one second and say something about 
manufacturing that we have heard discussion of?
    I have been involved in manufacturing policy, and I have 
worked with manufacturing workers for over 30 years. You know, 
given what has happened in manufacturing in this country, which 
I think is very important, why would we think that someone in 
high school is going to look at a manufacturing job and say, 
``That is something that is going to be there the rest of my 
working career. I want to get a job there,'' given the trade 
policies we have in this country, given the fact that we don't 
actually support manufacturing?
    Second, I have been studying the manufacturing wage 
premium. Manufacturing does pay better than other jobs, I 
think--and that is a great thing. But if that pay premium has 
substantially declined over the last 30 years, so in fact, it 
is not as good an opportunity as it used to.
    The last thing is, we know that employers provide a lot 
less--I will call it training, on the job, than they used to, 
but we don't have any surveys. So maybe there is one thing that 
people across the political spectrum here can agree, we need to 
have surveys done by BLS, that they used to do, which actually 
ask employers what kind of training do they actually provide on 
the job, because we have seen that go away.
    Mr. Courtney. Thank you. I mean, actually, I would sort of 
edit that a little bit, because what I would say is that the 
smart employers actually do engage in that kind of, you know, 
training, skill growth for incumbent workers.
    Mr. Mishel. Absolutely.
    Mr. Courtney. Electric Boat, which has just been awarded 
the largest ship-building contract in American history for the 
Virginia-class submarine, has a unionized workforce. They are 
producing submarines under budget, ahead of schedule 
consistently, because they approach this as an team, not as an 
us-versus-them situation.
    I just want to--my time is about to run out. I want Mr. 
Greenblatt to feel good about something here today, in terms of 
my Q&A. There is actually, I think more receptivity to your 
comments regarding the excise tax than--and I think, actually, 
Professor Mishel and you might have a good conversation on 
that, but we will reserve that for another day.
    So thank you all for being here today.
    Chairman Kline. Gentleman yields back. I thank the 
gentleman.
    Mr. Brat?
    Mr. Brat. Thank you, Mr. Chairman.
    I had a question in mind and a statement. As a professor 
that may go on for 30 seconds, so give me 30 before I get to 
the question. And I am thankful to Governor Pence for invoking 
Plutarch. I was waiting for my inroad.
    Very good. Thank you. Very good. So both of you can weigh 
back on this.
    In a policy setting like this, it is a little ironic to 
note that policy itself did not make the United States of 
America the greatest country in the world, right? The free 
market system and our rule of law did that.
    And so we go back to 1800, and modern economic growth takes 
off. Adam Smith, the invisible hand; James Madison, the 
Constitution; and you get modern economic growth for the first 
time in history, right? All the rest of human history made 
about $500 per year per capita, right?
    And so it is interesting in this policy forum that doesn't 
come up enough, so I am glad I heard a little Plutarch, and 
kids' passions, and following their dreams in the business 
world. And it is crucially important and makes all the 
difference.
    And so here are the two questions: Do our kids in any 
meaningful way--and I taught for 18 years so I know the answer 
to this--know what the free market system is? Right?
    The free market system has to be chosen by your society. We 
have always had trade. The Greeks had trade, trade the Agora, 
whatever.
    But countries have not chosen the free market system. And 
the most free countries are the most prosperous. That is what 
we all want; that is what everybody in here wants.
    And then secondly, more cynically--that is a hard one, 
right; that might be college level--do our kids in K-12 know 
what a business is? So we are doing skills conversations in 
here, and that is all great--trades and--I am in favor of all 
that. I think it is totally bipartisan. I can't imagine how we 
are not going to do that for the kids.
    But they are doing this for K-12 for 13 years of their life 
and they don't know what a business is, right? At the end of--
if you asked a kid, ``What is a business?'' at the end of 12th 
grade, they might not be able to answer that.
    And so I don't know if you have, Governor, any ideas of how 
to get the kids to reveal their passions at an early age so 
they know that they can use their passions in a vocation that 
is important to them in a business, and if they don't know that 
up front, all the skills training may not be for the best end. 
So I just--I am throwing that opened.
    Governor Pence. You bet. Well, thank you, Congressman. 
Thank you for your thoughtful comments, of which I am in strong 
agreement that the freedom of this country, our market freedom, 
the character and the faith of the American people explains the 
extraordinary success of the American experiment.
    I would tell you, though, that with regard to this issue of 
career--it is one of the reasons why I like to say ``career and 
vocational education'' as opposed to ``career and technical,'' 
because in Indiana, for instance, one of the things we are 
doing--when I was in Kokomo, Indiana recently I visited a high 
school that is ahead of the curve on what we are doing in this 
area. And I visited a welding class and there were terrific 
kids there, some of which are headed off to Purdue University 
to study engineering, and some of which are hoping to be in a 
welding school in Ohio that is one of the premier in the 
country.
    But then the next class I met with was the entrepreneurial 
class. That class is also part of the CTE curriculum. And the 
class actually itself changes place--I think it is every month 
they spend an entire month--several days a week--in a business, 
learning the business, and all different--financial services, 
and real estate, and health care, and learning that business, 
learning how it operates.
    And the end result of that course is these kids all--and 
they were just--so impressed with all the kids that I met--but 
they were standing there proudly telling me about the business 
plan that they were going to be submitting. And here is what 
they do in Kokomo: At the end of this career and technical 
education class, not only do they have to submit a business 
plan, but they submit it to local investors, okay, and with the 
idea that this may be an idea, a business whose time has come 
in Howard County, Indiana.
    So I really would encourage policymakers at this level, 
when you see Indiana moving boldly in this direction, we are 
really looking--we are looking to do, I think, in a very real 
sense, exactly what you are saying, and going well beyond 
traditional understandings of skills education, and really 
equipping young people.
    And my criteria is, if someone wants to start their career 
right after high school I want them to have the opportunity to 
get the background, the training, the practical experience, the 
internship, or the industry-recognized certification to be able 
to do that.
    I think it is a powerful idea. I think it speaks in a 
practical level to exactly what you are talking about, and 
exposing young people to businesses and enterprises, large and 
small, in their region I think will go a long way to them 
understanding the truth of what you said.
    Chairman Kline. The gentleman's time has expired.
    Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman.
    And thank you, to all the witnesses today, for being part 
of this conversation.
    And, Governor Pence, I appreciate your time and being here 
today. I am sorry we did not get to serve together, but I am 
very heartened to hear you talk about the importance of quality 
early education, and with your focus on career and vocational 
education, the recognition that it starts with our very 
youngest learners, which is certainly backed up by the 
educational research, and certainly I have heard from our 
business leaders around this country and in my state of 
Massachusetts, as a priority.
    So I wonder if you could expand a little bit. Indiana is a 
category one state, was eligible for up to $80 million under 
the Preschool Development Grant, and I know you said there were 
some issues maybe with your administration and with the 
legislature in Indiana. What specifically made them decide to 
pursue a $10 million state-funded pilot program rather than 
going for this money?
    Governor Pence. Well, thank you, Congresswoman. And I can 
tell already that I would have counted it a privilege to serve 
with you. I appreciate your courtesy very much.
    Let me correct, if I can, the record, very respectfully. It 
was not a decision between either/or.
    I pursued the creation of the very first publicly supported 
pre-K program in the state of Indiana, and we managed to pass a 
pilot program in the year 2014 that really crossed an important 
threshold in the state of Indiana, where the people of our 
state said yes to opening doors of opportunity for 
disadvantaged kids to be able to have access to quality pre-K.
    We put $10 million behind that out of excess reserve funds. 
And in the budget that we just unveiled, we are seeking from 
the Indiana General Assembly $10 million per year to fully fund 
that pre-K program.
    But I would tell you, through the legislative process, of 
which you may be still relatively new here, but not in your 
career I suspect, the general assembly in Indiana very much 
wanted to pursue this on a pilot basis, to have us learn--four 
urban counties, one rural county--to learn about diverse 
programs, diverse delivery systems, and to internalize those 
lessons before we made decisions about expanding the program.
    And my decision about not applying for a federal funding 
was simply born of two things: I wanted to keep faith with the 
spirit of the pilot program that had been created and embraced 
by our legislature, and thereby, by the people of Indiana.
    And secondly, I was very hesitant to expand the program 
before it was started. You might notice, if you look at 
Indiana's record on--whether it be tax reform, education 
innovation, or even last week on health care reform, we like 
doing things the Indiana way, which is to say we bring common-
sense Hoosier principles to bear on challenges, and we craft 
solutions that work in our communities and in our state. And I 
very much wanted to keep faith with that.
    So for me, I am very proud of the fact that our 
administration sought and received the very first public 
funding ever in Indiana for quality pre-K education. We are 
faithfully implementing that, and this fall we expect to have 
more than 1,000 disadvantaged kids in pre-K programs around our 
state, and have already launched the program in counties around 
our state since January this year.
    But I would tell you, in Indiana my decision ultimately was 
I did not want, with all due respect to the federal treasury, I 
did not want to invite federal resources to expand the program 
before it was even started. We wanted to learn from our 
experience, learn from our pilot program.
    But we are going to take those lessons and we are going to 
look in the future, I can assure you, for ways to expand 
opportunities to quality pre-K education in Indiana. I think it 
is right for our kids at the point of the need, and I am 
confident that as we learn the lessons about what programs work 
and in what ways in Indiana, the people of Indiana will be 
ready and, as they invariably are, be generous in supporting 
efforts for our most vulnerable kids.
    Ms. Clark. So was the funding itself tied to expansion? Was 
that the hurdle that you saw? It wouldn't have helped your 
pilot program in rolling out?
    Governor Pence. Well, I think ultimately, accepting federal 
funding to expand a program before it was started was 
premature. Our aim was to faithfully implement the pilot 
program that our general assembly created. We are in the 
process of doing that, and I look forward to it being a great 
success for vulnerable kids, and also a way that we can chart a 
course for the future.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Messer, you are not going to ask a question of your 
governor, right?
    Mr. Messer. Yes, well--
    Chairman Kline. You are recognized for five minutes.
    Mr. Messer. Thank you, Mr. Chairman.
    I want to say thank you to the witnesses. Thank you for 
your testimony. And at this stage of the hearing, I thank you 
for your stamina.
    You know, I hung around here to learn and I hung around for 
the opportunity to highlight a couple of my favorite topics, 
which is the leadership of our great Governor Pence, and also 
the importance of manufacturing for the future of America. And 
so, with the governor's permission, I am going to ask a 
question first to Mr. Greenblatt and then come back to the 
governor.
    And, Mr. Greenblatt, we are proud in Indiana to be a place 
that makes things. I believe that a key to the future of 
America is that we remain a place that makes things. I 
appreciate your work and the work of NAM.
    You got close to a couple times in other questions, but I 
just wanted to ask you almost just straight, as members of 
Congress sitting here today--and I believe we do have 
bipartisan support for the desire to make America strong and 
manufacturing in America strong. What would be the one or two 
things that we could best do to help you and your business and 
help the manufacturing industry in America?
    Mr. Greenblatt. One thing would be tax reform. We have a 
massive disadvantage when we go head to head against Canada and 
Germany and China. We are taxed 15--I am sorry, Canadians are 
taxed 15 percent and we are taxed 40 percent, so that would be 
one topic that is challenging.
    Another topic that is challenging is the regulations. We 
have a tremendous amount of burdensome regulations.
    The average American manufacturing employee has this heavy 
weight of regulations that makes us as a nation less 
competitive. So we lose jobs against France, Germany, and 
Canada that we shouldn't be losing.
    And if we could reduce some of these burdensome 
regulations, reduce our taxes, we could really prosper and grow 
jobs.
    Mr. Messer. Thank you. And as you highlighted, I mean, I 
think there is a renaissance in manufacturing happening in 
America. I see it in Indiana, where jobs are coming back from 
overseas. And we hope to work with you to do more to help make 
more of that happen.
    Now, to our Governor Pence, appreciate all of your 
testimony today, and again, I appreciate your friendship. I 
know one of the things that you and I are both very proud of is 
the work that has been done in Indiana so that we truly are a 
state today that not one child in Indiana has to have their 
future on a wait list, that parents have, now, the option to 
find the school that best fits their child, be that traditional 
public school, public school choice, public charter schools, 
virtual schools, and, of course, as you talked about just a 
second ago, the fact that Indiana now has the most robust 
private school choice program in the country.
    Could you talk a little bit, for the record here, about the 
amazing success of that program and what we are doing to even 
grow those opportunities further for kids in Indiana?
    Governor Pence. Well, thank you, Congressman. And let me 
congratulate you on your election to a leadership position in 
the House Republican Conference, and also for your efforts to 
really shine the light on school choice across the country, 
even in the last week. We are grateful for that and proud of 
your service.
    I have long said that there is nothing that ails our 
schools that can't be fixed by giving parents more choices and 
teachers more freedom to teach. And the agenda that our 
administration brought forward this year, the aim of which is 
to have 100,000 more kids in B or better schools by the fall of 
2020, is really an all-of-the-above strategy.
    But choice is a central element of that. As I said to one 
of your colleagues earlier, I really do believe that the advent 
of public-to-public school choice, public-to-public charter 
choice, and, of course, the largest voucher program in America, 
which is in the state of Indiana, have resulted in the overall 
improvement and student achievement that we have seen in the 
state.
    The test scores are up, graduation rates are up, the 
second-best improvement in the country in the Nation's Report 
Card, known as the NAEP. I think that is all a result of that.
    But I would emphasize that for my part, with all due 
respect to the best-intentioned bureaucrat in the world, no one 
has a better idea about where my kids are going to thrive, 
where their imagination and potential is going to be kindled, 
than Karen and I do. And particularly focusing, as we did in 
our school choice voucher program, on the ability of parents to 
choose the school--public, public charter, or private-- that 
would best serve their needs will continue to be a lodestar in 
Indiana.
    Mr. Messer. Thanks for your leadership--
    Chairman Kline. Gentleman's time has expired.
    Ms. Adams, you are recognized?
    Ms. Adams. Thank you, Mr. Chair.
    Thank you, to all the witnesses.
    Dr. Mishel, you indicated that improving educational 
attainment was important for all children to have the 
opportunity to rise up in that income ladder, and I agree with 
that. I am a 40-year educator, having completed 40 years at 
Bennett College, in Greensboro.
    But I believe that education must not only be accessible, 
but it has got to be affordable. And with the increased costs 
of higher education making it more difficult for students to 
complete postsecondary education, it is especially true for 
low-income and minority students.
    For example, students at HBCUs--North Carolina has more 4-
year accredited HBCUs than any other state--it is very, very 
difficult for these students. They are penalized for what is 
called Parent PLUS loans. Parent PLUS loans are basically not a 
plus, they are a minus.
    But my question is, what do you think we can do to make 
Parent PLUS loans more of a plus than a minus? Secondly, can 
you talk about the effect of lesser education attainment on 
wages, especially those for minorities and women? And what 
would be the educational outlook for students who aren't able 
to pursue higher education because of financial barriers?
    Mr. Mishel. Well, I will take part of that. I don't know 
whether you wanted the person from the university to answer the 
other part.
    First of all, I want to say I have been to Bennett College. 
I visited my good friend, Julianne Malveaux, when she was the 
president. Welcome to Washington.
    I think, you know, providing opportunities--and I 
understand the challenges of the students there, and what 
Julianne had to do to try to assist students to be able to come 
to Bennett College and to get through, with parents, most of 
whom had never gone to college themselves, or were working-
class or poor.
    It is really essential that we provide as many 
opportunities as possible to break down all the barriers to 
community college, to college, because what it really does is 
give access to jobs--to be able to compete for jobs in the 
future, so those students will do better than their parents.
    What it really won't do, I am afraid to say, is it is not 
really a recipe for overall wage growth, because what we see is 
that wages have been flat for college grads, for community 
college grads, and high school grads. So we can take people and 
move people up to different groups, but what we really need are 
policies that lift wages for all the different groups in 
America.
    Thank you.
    Ms. Adams. So do you agree that, you know, I think I heard 
some comments about different wages for students and other 
folks, and knowing and having worked with young people for a 
long time, I know the responsibilities that they bring with 
them to school, trying to finance their education, taking care 
of families costs them the same thing to buy a loaf of bread as 
it would anybody else, so, you know, I just wanted to, you 
know, put that out there.
    But certainly if the gentleman--governor would like to 
speak to this issue, I certainly would love to hear from him--
or Dr. Amiridis.
    Governor Pence. Go ahead, Doctor.
    Mr. Amiridis. Let me first of all mention that in the state 
just south from you, in the state of South Carolina, the 
University of South Carolina is very proud of our Gamecock 
Guarantee program. Over the last six years we have supported 
900 students with family incomes below the poverty level, 
guaranteeing them full support if they manage to maintain 
academic standards.
    What we have seen is that when you take the financial 
question out of the pictures, these students perform better, 
actually, than the average student because they had the desire, 
they had the drive to succeed in school and to lift themselves 
out of what have been generational cycles of poverty that they 
have experienced.
    I was in front of the House Ways and Means Committee in the 
state of South Carolina last week and I asked them for need-
based funding. Many of our states have very good merit-based 
programs.
    We need need-based funding. I think it is very important at 
the state level, and of course, the Pell Grants. Support the 
Pell Grants, expand the Pell Grants to the extent that you can 
at the federal level.
    There is no question that a degree in higher education is a 
balance. You can view it as public good or private benefit. And 
that is what our system reflects.
    Part of the state and the federal government is paying for 
the public good part of it, and part of the individual pays for 
the public benefit--for the private benefit part of it.
    I think there are creative solutions to the loans, in terms 
of how do you ask them to repay the loan. Should they repay the 
loan based on their earning ability after they leave college?
    How do we guarantee that we get the money back? Do we count 
the money--and there are solutions like this that they have 
been advanced at the state level and the federal level that I 
think your committee can bring experts in to testify and talk 
about.
    Chairman Kline. The gentlelady's time has expired.
    Mr. DeSaulnier?
    Mr. DeSaulnier. Thank you, Mr. Chairman. Congratulations on 
the pronunciation; that was great. And I want to thank you--
    Chairman Kline. See my notes here on how to pronounce that.
    Mr. DeSaulnier. You passed.
    And to the ranking member for doing this. So it has really 
been thrilling. It is funny to come at the end. It reminds me 
of the Churchill line of everything has already been said but 
not everyone has said it.
    So, Dr. Mishel, I did want to talk to you about public 
research facilities. I represent the--much of the East Bay in 
the San Francisco Bay Area. We have two national laboratories 
and we have the University of California, that prides itself as 
a research facility, as you know.
    When I go and see them they tell me about the very exciting 
public-private partnerships they are doing with the private 
sector, as you mentioned. But they also lament the fact that we 
are not investing as much in public research for the 
government, particularly the federal government.
    Is that true in your experience as well? And is that a 
danger, do you think?
    Mr. Amiridis. I think the availability of funds has 
decreased. It is true what they are telling you, that the 
availability of the funds has decreased.
    And I am a true believer in public-private partnerships, 
but it has to be a partnership. We cannot expect for the 
private sector to do everything for us without us contributing 
what we can. So I think our colleagues in the Bay Area are 
giving you the right picture.
    Mr. DeSaulnier. I appreciate that.
    Dr. Mishel, you mentioned consumers, and I am--I was--like 
you, my father was a Republican and I owned small businesses. I 
was in the restaurant business.
    So one of the most important things for the success and 
opportunity for Americans is customers. So we have--and the 
speaker mentioned this in our first meeting when we were sworn 
in--is this sort of perfect storm of not just wage stagnation, 
but fixed household costs going up. So for somebody in the 
restaurant business, you would read the restaurant trade 
magazines and disposable income are really important.
    So who spends money? Wealthy people. When I managed to own 
a restaurant in San Francisco there were plenty of wealthy 
people. You gave them a product they liked, you didn't have to 
worry about it.
    When I owned a business in Concord, California, which was 
much more working-class, the kind of regulations that the 
governor mentioned were more vexing because my consumers didn't 
have enough disposable income.
    Could you speak to that?
    Mr. Mishel. Yes. Thank you very much for your question.
    I would just say, there are two things. One, my analysis of 
the economy is that we still face a shortfall in aggregate 
demand, and that is one reason why we have this excessive 
unemployment. That is the aftermath of the financial crisis, 
and that is why fiscal austerity at the state level and the 
federal level has actually hurt very much--you know, we have 
lost 2 million or 3 million jobs because of that.
    But we also have a long-term problem, where we--I think 
our--we have growth challenge because of the change in income 
distribution, and I think that is what you are talking about, 
because the incomes have shifted to those who consume less. And 
I think moving forward, we will see consumption growth be more 
challenged than it has in the past.
    In the past, families have gotten by taking on more debt, 
by sending more people into the workforce, and perhaps 
benefiting from the housing market bubble. Those things aren't 
going to be available going forward. So if we don't actually 
grow the old-fashioned way, where people earn higher wages and 
spend it from that, we won't be able to grow as well as we 
could.
    Mr. DeSaulnier. Governor Pence, I wanted to commend you on 
your work on regulation, but my experience is it is making sure 
the regulation is effective, the ones we have. So my questions 
are to you: Did you do cost-benefits with the legislature so 
that there are regulations that actually are helpful to the 
economy? So when you went through that process, did you do 
that?
    Governor Pence. That is the policy of the state of Indiana 
our Office of Management and Budget initiated, after we 
declared a moratorium on any new regulation when I became 
governor two years ago--other than that which was mandated by 
federal law. We did a full-scale look-back and have been in 
that process of doing precisely that, Congressman, is a cost-
benefit analysis and determining where we might be able to cut 
red tape without compromising worker safety and environmental 
concerns.
    Mr. DeSaulnier. So the result of that, there were some 
regulations. I think all of us agree less regulation is better, 
but there are regulations that are actually effective.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Mr. Jeffries, you are recognized?
    Mr. Jeffries. Thank you, Mr. Chairman.
    And I thank Governor Pence and all of the witnesses for 
your very thoughtful testimony today.
    Let me start with Mr. Greenblatt.
    It is my understanding that in your testimony you mentioned 
that we need solutions, not bromides and bombastic rhetoric. Is 
that correct?
    Mr. Greenblatt. Yes.
    Mr. Jeffries. And that in order to, you know, move the 
economy forward we really need--think the phrase was 
``collective, serious discussion.'' Is that correct?
    Mr. Greenblatt. Yes.
    Mr. Jeffries. Now, in terms of the National Association of 
Manufacturers' position on comprehensive immigration reform, am 
I correct that it is your view that comprehensive immigration 
reform would be helpful to our economy moving forward?
    Mr. Greenblatt. We need more talented immigrants coming to 
our country so that they can--you know, we need to keep all the 
wonderful people that are graduating--foreigners graduating 
from our colleges in engineering and doctor degrees--medical, 
et cetera. We need those people to stay here, not go back to 
China or back to India.
    We need them to stay here and either work at American 
companies, create innovations here in America, or create 
companies here in America. We need that entrepreneurial zeal to 
really supercharge the economy again.
    Mr. Jeffries. And I assume you would agree with the 
statement that, with respect to moving forward on comprehensive 
immigration reform, we need less sort of rhetoric and need to 
move to a place where we can actually accomplish results and 
enact the type of changes that you believe would be helpful for 
the economy?
    Mr. Greenblatt. My great-grandmother, Kate, came over from 
Russia in 1904. It was critical--either that or she would live 
a very terrible life. I am so thankful she came here to 
America.
    America needs immigrants to thrive and to prosper. They 
rejuvenate our economy and they grow our system.
    Mr. Jeffries. And I will thank you for that. I am actually 
privileged to represent more Russian-speaking Jewish immigrants 
from the former Soviet Union than any other member of Congress 
in the country, in Brighton Beach and other neighborhoods in 
Brooklyn. And certainly we have benefited, as New York City has 
benefited, from the hard work of these immigrant families.
    To Dr. Amiridis, you mentioned, I believe, in your 
testimony that amongst the mix of things important to promoting 
higher education for our students in a way that would benefit 
the country is Pell Grants. Is that correct?
    Mr. Amiridis. That is correct.
    Mr. Jeffries. And are you aware that in the Republican 
budget proposed in the last Congress for fiscal year 2015, that 
the House majority sought to cut $125 billion in Pell Grants 
over the next 10 years?
    Mr. Amiridis. I don't follow the legislative issues that 
closely, but I will take your word for it.
    Mr. Jeffries. Would you support that type of cut?
    Mr. Amiridis. I think that any cut to the Pell Grants would 
put students at risk, and these are the students that need this 
education more than anybody else.
    Mr. Jeffries. Thank you.
    Dr. Mishel, as you mentioned, the productivity of the 
American worker has increased significantly above 70 percent 
since the 1970s. Is that correct?
    Mr. Mishel. That is correct.
    Mr. Jeffries. Yet, wages have remained relatively stagnant 
for the middle-class worker during that same time period, 
correct?
    Mr. Mishel. That is correct. The only time they actually 
rose was in the period of the late 1990s, when we had 
persistent low unemployment.
    Mr. Jeffries. And so middle-class workers have not been 
able to benefit from the economic growth generated from their 
increased productivity, correct?
    Mr. Mishel. Sure. I would even say that even though Indiana 
is near to nirvana, the workers in Indiana even have seen 
falling wages. The median hourly wage in Indiana has fallen 6 
percent since 2000. So this has happened across the country.
    Mr. Jeffries. How do we address this systematic issue to 
make sure that hardworking Americans, working families, 
moderate-income folks, middle-class Americans throughout this 
country can actually benefit from the clear increased 
productivity that has served the country's economy well, but 
hasn't necessary inured to the benefit of the workers who have 
made it actually happen?
    Mr. Mishel. That is a great question. I think the first and 
foremost is, we have to actually act as if better-quality jobs 
and higher wages is actually our foremost concern about the 
economy.
    We can raise productivity, we can have better growth, but 
unless we do the things that are needed to actually link higher 
wages to productivity growth, most people aren't going to 
benefit. As I said, higher minimum wage, stronger access to 
collective bargaining, higher labor standards, eliminate wage 
theft--all those kinds of things are needed.
    Mr. Jeffries. I would just note that you mentioned consumer 
demand as one of the problems impacting the American economy. 
And obviously, just like gas prices dropping puts more money in 
the hands of the American worker, they will save more and spend 
more, that benefits everyone, so, too, would an increase in the 
minimum wage.
    I yield back.
    Chairman Kline. I thank the gentleman.
    I want to thank the witnesses for your stamina; I think was 
pointed out earlier, this really is an excellent panel of 
witnesses. I very much appreciate your testimony and your frank 
answers to questions.
    Before I gavel down, I want to turn to Mr. Scott for any 
closing remarks he may have?
    Mr. Scott. Thank you, Mr. Chairman, and I thank you for 
holding the hearing. We got a lot of really good information.
    I was particularly impressed with the consensus on 
vocational education in high school, with the understanding 
that it does not diminish the academics but adds to the 
academics, because we don't want students to leave high school 
without the fundamental background that--an academic 
background. And with that understanding, there is a lot of 
consensus that can be achieved.
    We also found the importance of financial aid to colleges, 
including research, so that our young people can not only be 
doing the research, but a lot of college students are not 
getting jobs if we are not doing the research. And I'm 
delighted to see a consensus on the need for comprehensive 
immigration reform.
    Again, this shows what happens when you have a hearing, we 
can find a lot of common ground that is apparently not going to 
happen on ESEA, and we would hope that we would delay the 
consideration of that legislation until such time as we can 
have meaningful hearings to find what common ground there may 
be.
    Yield back.
    Chairman Kline. Thank the gentleman for his comments and 
for yielding back.
    I want to again thank the witnesses. I am trying to think, 
we are just having a discussion, if we have ever had a hearing 
where Plutarch came up. I don't think so, so I am grateful for 
that.
    Like Mr. Scott, I love the discussion on CTE. I do hope 
that we don't get ourselves bound up between whether it is 
vocational or technical, or education or training. We know 
where we are trying to go with that, and I think there is 
bipartisan consensus that we ought to be doing that and ought 
to be doing more of it.
    Just one final comment on training, I am sorry that Ms. 
Foxx, like most members, has had to move onto other things; the 
hour is getting late. I noted to her before that in my 25 years 
in the Marine Corps we did a lot of training, and I actually 
didn't know very many dogs there, but I am now questioning the 
whole thing.
    So again, I hope semantics doesn't get us down and we get 
on to the issue that the governor has explained so well. And we 
certainly hope that program is working in Indiana as we look 
out across the country.
    There being no further business, the Committee stands 
adjourned.
    [Whereupon, at 12:38 p.m., the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
